PETITION APPENDICES: SECTION A
RECENT APPELLATE RECORD
September 11, 2019 through January 3, 2020
Pet. App. No.

1.
2.
3.
4.

Document/Authoritv

Page

Judicial Opinions and Orders
(in reverse chronological sequence)
NMSC Order Denying Motion for Rehearing ....
Entered: January 3, 2020
NMSC Order Denying Petition......................
Entered: December 6, 2019
NMCA Order Denying Motion for Rehearing....
Entered: October 8, 2019
NMCA Memorandum Opinion....................
Entered: September 11, 2019

2a
3a
5a
6a

Pleadings and Notices
(in chronological order)
5. Plaintiff-Appellants' Motion for Rehearing.......15a
Entered: September 26, 2019
6. Plaintiff-Appellants' Petition for a Writ of........ 31a
Certiorari
Entered: November 7, 2019
7. NMSC Notice of Filing ............
45a
Entered: November 7, 2019
8. NMSC Notice of Recusal (Barbara J. Vigil)......46a
Entered: November 27, 2019
9. NMSC Notice of Recusal (David K. Thomson).. 47a
Entered: November 27, 2019
10. Plaintiff-Appellants' Motion for Rehearing .... 48a
Entered: December 21, 2019

- la -

Pet. App. No. 1 (Recent Appellate Record)
NMSC Order Denying Motion for Rehearing
Filing Date and Time: January 3, 2020 at 3:43 PM
IN THE SUPREME COURT
OF THE STATE OF NEW MEXICO
No. S-l-SC-38001
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN AUKEN, Beneficiary,
Plaintiff-Petitioner,
v.

FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendants-Respondents.
ORDER
WHEREAS, this matter came on for consideration by
the Court upon motion for rehearing, and the Court
having considered said motion and being sufficiently
advised, Chief Justice Judith K Nakamura, Justice Michael
E. Vigil, and Justice C. Shannon Bacon concurring;
NOW THEREFORE, IT IS ORDERED that the
motion for rehearing is DENIED; and
IT IS FURTHER ORDERED tht the Court of
Appeals may proceed in Van Auken v. Catron, Ct.
App. No. A-l-CA-35704 in accordance with the Rules
of Appellate Procedure.
IT IS SO ORDERED
WITNESS, the Honorable Judith K. Nakamura,
Chief Justice of the Supreme Court of the State of
New Mexico, and the seal of said Court this 3rd day
of January, 2020.
[signed by Joey D. Moya]
Joey D. Moya, Chief Clerk of the Supreme Court
of the State of New Mexico
- 2a-

Pet. App. No. 2 (Recent Appellate Record)
NMSC Order Denying Petition
Filing Date and Time: December 6, 2019 at 9:13 AM
IN THE SUPREME COURT
OF THE STATE OF NEW MEXICO
No. S-l-SC-38001
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN AUKEN, Beneficiary,
Plaintiff-Petitioner,
v.

FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendants-Respondents.
ORDER
WHEREAS, this matter came on for consideration by
the Court upon petition for writ of certiorari filed
under Rule 12-502 NMRA, and the Court having
considered the foregoing and being sufficiently
advised, Chief Justice Judith K. Nakamura, Justice
Michael E. Vigil, and Justice C. Shannon Bacon
concurring;
NOW THEREFORE, IT IS ORDERED that the
petition for writ of certiorari is DENIED
IT IS FURTHER ORDERED tht the Court of
Appeals may proceed in Van Auken v. Catron, Ct.
App. No. A-l-CA-35704 in accordance with the Rules
of Appellate Procedure.
IT IS SO ORDERED
WITNESS, the Honorable Judith K. Nakamura,
Chief Justice of the Supreme Court of the State of

- 3a-

New Mexico, and the seal of said Court this 27th day
of November, 2019.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico
[signed by Madeline Garcia]
Chief Deputy Clerk

- 4a -

Pet. App. No. 3 (Recent Appellate Record)
N.M. Court of Appeals Order Denying Motion for Rehearing
Filing Date and Time: October 8, 2019 at 10:50 AM
IN THE COURT OF APPEALS
OF THE STATE OF NEW MEXICO
No. A-l-CA-35704
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN AUKEN, Beneficiary,
Plaintiff-Appellants,
v.

FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendant-Appellees.
ORDER DENYING MOTION FOR REHEARING
Ths matter is before the Court on Appellant’s motion
for rehearing. The original panel of judges has
considered the motion.
THE COURT ORDERS THAT the motion IS
DENIED.
[signed]
[M. Monica Zamora]
COURT OF APPEALS JUDGE

- 5a-

Pet. App. No. 4 (Recent Appellate Record)
N.M. Court of Appeals Memorandum Opinion
Filing Date and Time: September 11, 2019 at 11:12 AM
IN THE COURT OF APPEALS
OF THE STATE OF NEW MEXICO
No. A-l-CA-35704
RICHARD A. VAN AUKEN,
Trustee, and Richard A.
Van Auken, Beneficiary,
Plaintiffs-Appellants,
v.
FLETCHER R. CATRON,ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendants-Appellees.
APPEAL FROM THE DISTRICT COURT OF
SANTA FE COUNTY
David K. Thomson, District Judge
Lakins Law Firm, P.C.
Albuquerque, NM
for Appellant
Brant and Hunt, Attorneys
John M. Brant
Albuquerque, NM
for Appellee Fletcher R. Catron, Esq.
Andrew G. Schultz
Albuquerque, NM
for Appellee Peter F, Wirth
Dixon, Scholl & Bailey, P.A.
Gerald G. Dixon
Taylor M. Lueras
Albuquerque, NM
for Appellee Karen Aubrey, Esq.
- 6a -

MEMORANDUM OPINION
M. ZAMORA, Chief Judge.
{1} Plaintiff Richard Van Auken, in his capacity as
third successor trustee and in his capacity as
beneficiary of the Seton Family Trust Contract
(Trust) appeals the district court's order denying his
Rule 1-060 NMRA motions to set aside the district
court's March 31, 2011 order dismissing this case in
its entirety. Concluding that the order appealed from
was a final, appealable orderm and that the motions
to reconsider were properly denied, we affirm.
{2} Because this is a memorandum opinion and the
parties are familiar with the extensive procedural
history,
we
include
additional
background
information only where relevant to the analysis.
I. The District Court's Order was a Final Appealable Order
{3} Plaintiff argues that the district court's June 7,
2016 order from which he appeals is not a final,
appealable order because although it denied his Rule
1-060(B)(6) motion to set aside the March 31, 2011
order, it did not consider his two pending Rule 1059(E) NMRA motions to reconsider the March 31,
2011 order. However, Defendant Catron argues that
the Rule 1-060(B)(6) was withdrawn from the record
and thus, the only motions the district court needed
to consider were the Rule 1-059(E) motions
{4} "In determining whether an order is final, this
Court looks to the substance rather than the form of
the order." See Los Ranchos de Albuquerque v.
Shively, 1989-NMCA-095, 1 12, 110 N.M. 15, 791 P.
2d 466. This Court gives the order a practical rather
than a technical construction. Id. "The test of
whether a judgment is final so as to permit the
- 7a-

taking of an immediate appeal lies in the effect the
judgment has upon the rights of some or all of the
parties." Id. " A decision which terminates the suit,
or puts the case out of court without an adjudication
on the merits, is a final judgment." Id..
{5} Based on our review of the record, we conclude
that the order appealed from is a final, appealable
order because it considered and disposed of Plaintiffs
arguments on the Rule 1-059 motions to reconsider,
despite the nomenclature in the final order
referencing Rule 1-060. There are three reasons for
our conclusion. First, the district court partially
denied Plaintiffs motion for leave to file a Rule 1-060
motion to set aside the March 31, 2011 order. In light
of its partial denial, the district court considered the
proposed Rule 1-060 motion to set aside to be
withdrawn from the record. The district court
granted, in part, Plaintiffs motion for leave to file a
Rule 1-060 motion, "as it applies to the [Rule 1059(E)] motions that were to reconsider Judge
Singletons' March 31st, 2011 order." The district
court went on to say, " I will hear, at that time, those
motions to reconsider and then take under
advisement the remaining portion of Plaintiffs
motion for leave to file . . . Rule [l-0]60 motion until
I've made a determination on the — what I see as , at
this point, just a limited [Rule 1-059(E)] motion to
reconsider Judge Singleton's [order]." Further, the
district court explained, "I will deny it as to the
remainder [with regard to the attached motion and
Rule [1-0]60(B) motion] without prejudice. I will
revisit that issue once I make a decision as to . . .
Judge Singleton['s] ruling."

- 8a-

{6} Second, the district court correctly denied the
motion for leave to file the Rule 1-060 motion to set
asde on the grounds that, in a related matter,
Plaintiff was permanently enjoined from
filing any pleading or paper in any existing action
[against Defendant Catron] in any such [state or
federal] [ court, unless he is represented by an
attorney licensed to practice law in the State of
New Mexico and a court in the State of New
Mexico grants such counsel permission to file
such action, pleading or paper, after notice and
an opportunity to be heard on counsel's application
has been provided to [Defendant] Catron.
Seton Family Trust Interests ex rel. Van Auken, No.
D-101-CV-2011-01917, Order Granting Injunctive
Relief (Nov. 1, 2011); See also Van Auken v. Catron,
No. A-l-CA-31961, memo. Op. At *4 (N.M. Ct. App.
Jan 7, 2013) (non-precendential) (affirming permanent
injunction and dismissal of 2011 declaratory action,
and acknowledging that there was a pending motion
to reconsider in the matter underlying the current
appeal). However, the district court acknowledged
that Plaintiffs two pending Rule 1-059(E) motions
were filed in April 2011, prior to the November 2011
injunction against Plaintiff, and therefore, Plaintiff
was entitled to a hearing on those issues.
{7} Third, notwithstanding the fact that the final
order indicates a denial of Plaintiffs Rule 1-060(B)(6)
motion to set aside, the district court also included
language in its order regarding the standard for
reviewing a motion for reconsideration. See
Albuquerque Redi-Mix, Inc. v. Scottsdale Ins. Co.,
2007-NMSC-051, 110, 142 N.M. 527, 168 P. 3d 99
("[A] motion challenging a judgment filed within ten
-9a-

days of the judgment, should be considered a Rule 1059(E) motion to alter or anmend a judgment.
Nomenclature is not controlling." (alteration,
internal quottion marks, and citation omitted)).
Moreover, at the hearing, the district court confirmed
that the parties were present to argue the merits of
Plaintiffs Rule 1-059(E) motion to reconsider, and
counsel for both Plaintiff and Defendant Catron
confirmed that no other matters were pending.
Plaintiff does not otherwise respond to Defendant
Catron's argument that the order is a final
appealable order. As such we proceed with a
consideration of the merits of Plaintiffs appeal.
II. The Motion to Reconsider Was Properly Denied
A. Backgound
{8} Plaintiff alleges Defendants engaged in probate
fraud in violation of NMSA 1978,§ 454-l-106(A)
(1975) and attorney collusion or decits in violation of
NMSA 1978, Section 36-2-17(1) (1909) when they
allegedly misrepresented to the first successor
trustee, Burr E. Lee Jr, and the beneficiaries
(including Plaintiff) that Mr. Lee could transfer a
Trust asset out of the Trust to a family hospice nurse
in violation of the terms of the Trust. This Court
noted in the prior appeal affirming the injuction that
Plaintiff filed four separate lawsuits and appeals
against Defendant Catron, and other third parties
between 2006 and 2011, all involving the
interpretation of the Trust, and sometimes as a pro
se litigant. See also Van Auken, No. A-l-CA-31961,
memo. op. at *7, 9. This Court further noted that
Plaintiff persisted in attempting to represent the
Trust despite repeated rulings that he could not do
so because he was not an attorney, and otherwise
- 10a -

representing the trust amounted to the unauthorized
practice of law. ID. At *7; see also Lee v. Catron,
2009-NMCA-018, H 4-5, 145 N.M. 573, 203 P. 3d
104 (affirming dismissal of Van Auken's case against
Catron because a non-attorney trustee cannot
represent a trust unless he is the sole beneficiary);
Seton Family Trust Interrests ex rel. Van Auken u.
Wirth, No. A-12-CA-30215, mem. Op. at *1 (N/M/ Ct.
App. Aug. 18, 2010) (non-precedential) (affirming
dismissal of Van Auken's suit against Catron and
others because Van Auken could not represent the
trust pro se).
{9} Plaintiff on behalf of the Trust (as trustee) and
personally (as beneficiary) is seeking to recover an
asset - the house referred to as the Timberwick
Property - for the Trust so that it can be distributed
to himself as beneficiary.
{10} Defendants Aubrey, Wirth, and Sawtell (who
were legal counsel for various parties in the 2002
probate distribution of the first successor trustee's
assets), were dismissed as Defendants in the action
with prejudice on the grounds that Plaintiff could not
represent the Trust as a non-lawyer. Although the
"individual claims of [Plaintiff] against [Defendant]
Catron remained,]" the district court dismissed the
attorney collusion or deceit claim under Section 36-217 such that only the probate fraud claim remained.
{11} The district court also denied Plaintiffs motion
for partial summary judgment on the terms of the
Trust, and noted the ambiguity of the language at
Section 1, Paragraph 2, Sunsection A which provides:
"The trustee shall continue to pay income and such
sums of principal to the survivor as requested."
(Emphasis added.) The court reasoned that the
- 11a-

meaning of that phrase went to the the intent of the
parties, which was a question of fact to be addressed
at trial. Plaintiff appealed those determinations.
This Court dismissed Plaintiffs appeal of those
dismissals with prejudice, concluding that the effect
on remand was that the district court should
consider whether the case, with the Trust, should be
dismissed in its entirety for failure to join an
indispensible party (the Trustee on behalf of the
Trust) under Rule 1-018 NMRA. See Van Auken v.
Catron et al., No. A-l-CA-27554, memo op. at *6-7
(N.M. Ct. App., June 27, 2008) (non-precendential).
{12} After the remand and mandate from this Court,
Defendant Catron, the sole remaining Defendant,
filed a motion to dismiss the entire case for failure to
join an indispensable party, while at the same time,
Plaintiff filed a (renewed) motion to intervene as
Trustee on behalf of the Trust. The district court
denied the motion to intervene in its July 30, 2010
order, concluding that it was untimely because
Plaintiff had still not secured counsel for himself as
Trustee, and that equity weighed in favor of
dismissal given the amount of time Plaintiff had to
secure counsel and repeated warnings about the
consequences of failing to obtain counsel. Plaintiff
moved the district court to reconsider and in its
October 29, 2010 order, the district court denied
Plaintiffs motion to reconsider the July 30, 2010
order. Accordingly, the district court granted
Defendant Catron's Rule 1-019 motion to dismiss the
case in its entirety with prejudice for failure to join
an indispensable party (the Trustee, on behalf of the
Trust) in its March 31, 2011 order. Plaintiff filed two
Rule 1-059 motions to reconsider the March 31, 2011

- 12a-

order, one in his capacity as beneficiary and the
other in his capacity as trustee, pursuant to Rule 1059(E).
B. The Motions to Reconsider Were Properly Denied
{13} We review district court rulings resolving
motion to reconsider for an abuse of discretion.
Rivera v. Trujillo, 1999-NMCA-129, t 16, 128 N.M.
106, 990 P.2d 219. In Rivera, the district court
declined to consider information presented by the
plaintiff in a motion to reconsider its granting of
summary judgment in the defendants favor. Id. f 17.
The court reasoned that counsel failed to timely
bring the information to the court's attention and
exercised its discretion not to consider the untimely
presented depostion testimony. Id. ]f 19. The same is
true for the Rule 1-059 motions in this case. The
district court did not see any reason to reverse its
prior decision dismissing the action with prejudice,
and Plaintiff fails to point this Court to any
identifiable legal or factual justification in support of
his theory. See Corona v. Corona, 2014-NMCA-071, f
28, 329 P.3d 701 ("This Court has no duty to review
an argument that is not adequately developed."). We
therefore conclude that the district court did not
abuse its discretion.
III. Plaintiffs Remaining Issues Are Without Merit
{14} Plaintiff argues that the district court erred in
denying his Rule 1-060 motion to set aside based on
cumulative abuses of discretion over fifteen years of
litigation, and error in not making a final
determination of the meaning of ambiguous language
in the Trust. To the extent Plaintiff argues that the
district court committed reversible error in the 2002
probate matter, 2003 post-probate matter, or 2011
- 13a-

declaratory matter, or that this Court committed
error in the 2009 opinion, Plaintiff does not provide
us with any reference to authority granting this Court
the jurisdiction to review issues raised reagarding
distrct court error in these matters. We therefore
assume none exists. Curry v. Great Nw. Ins., Co.,
2014-NMCA-031, 1 28, 320 P.3d 482 ("Where a party
cites no authority to support an argument, we may
assume no such authority exists.").
{15} We further decline to consider Plaintiffs
remaining arguments seeking a declaration of injury,
and to determine the meaning of the language in the
trust because this Court is not a fact finding court.
See VanderVossen v. City of Espanola, 2001-NMCA016, If 26, 130 N.M. 287, 24 P.3d 319 (explainning
that this Court exercising appellate jurisdiction is
not a fact finding body).
CONCLUSION
{16} For the foregoing reasons we affirm the district
court's order denial Plaintiffs motion to reconsider.
{17} IT IS SO ORDERED.
M. MONICA ZAMORA, Chief Judge
WE CONCUR:
J. MILES HANISEE, Judge
BRIANA H. ZAMORA, Judge

- 14a -

Pet. App. No. 5 (Recent Appellate Record)
Plaintiff-Appellants' Motion for Rehearing
Filing Date and Time: September 26, 2019 at 2:43 PM

IN THE COURT OF APPEALS
OF THE STATE OF NEW MEXICO
No. A-l-CA-35704
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN AUKEN, Beneficiary,
Plaintiff-Appellants,
v.

FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendant-Appellees.
An Appeal from the District Court of the First
Judicial District
Santa Fe County, New Mexico
No. D-0101-CV-2006-01509
Honorable David K. Thomson
Plaintiff-Appellants’ Motion for Rehearing
Lakins Law Firm, P.C.
Charles N. Lakins, Esq.
P.O. Box 91357
Albuquerque, NM 87199
(505) 404-9377
Fax: (877) 604-8340
Charles@LakinsLawFirm.com
September 25, 2019 Attorney for Plaintiff-Appellant
The Plaintiff-Appellant, Trustee, Richard A. Van
Auken in his capacity as the third successor trustee
under the Seton Family Trust Contract, and
Plaintiff-Appellant, Beneficiary, Richard A. Van
- 15a -

Auken in his capacity as one of seven living
beneficiaries named in this same Trust Contract,
hereby submit this Motion for Rehearing pursuant to
NMRA Rule 12-404.
On September 11, 2019, this Court released its
Memorandum Opinion affirming the District Court
dismissal of Plaintiff-Appellants Rule 1-060(B)(6)
Motion based on separate findings in three parts:
(Part I) that the District Court order dismissing the
Rule 1-060(B)(6) Motion was a final, appealable
order, (Part II) that two Rule 1-059(E) motions to
reconsider separately filed by Plaintiff-Appellant,
Trustee (as trustee) and Plaintiff-Appellant,
Beneficiary (as beneficiary) were properly denied,
and (Part III) that all other issues raised by PlaintiffAppellants in their 53-page Brief-In-Chief filed
October 6, 2017 are “irrelevant.”
Plaintiff-Appellants set forth in this Motion for
Rehearing two bases for suspending the September
11, 2019 Memorandum Opinion of the this Court
until further review is undertaken to produce an
amended final determination:
1. Legal Basis: In Plaintiff-Appellants’ opinion, this
Court has failed to understand and act on its legal
powers and duties under the law to resolve a central
issue in this Case, namely, the meaning of language
in the six-page Seton Family Trust Agreement of
1978 and
2. Factual Basis: In Plaintiff-Appellants opinion, this
Court in its Memorandum Opinion of September 11,
2019 has misapprehended or misconstrued several
items in the procedural history of this Case that
underlie Plaintiff-Appellants’ October 6, 2017 Briefin-Chief
- 16a -

Plaintiffs-Appellants set forth below their points of law
and facts associated with these two bases, pointing
out certain facts to correct and challenge the Court's
analysis set forth in its Memorandum Opinion.

I. LEGAL POWERS UNDER DECLARATORY
JUDGMENT ACT
The Court’s Memorandum Opinion states in Part III
the following on p. 9, lines 11-14:
"Plaintiff argues that the district court erred in
denying his Rule 1-060 motion to set aside based
on cumulative abuses of discretion over fifteen
years of litigation, and error in not making a final
determination of the meaning of ambiguous
language in the Trust;" (emphasis added)
Plaintiff-Appellants’ Brief-in-Chief had requested the
following at page 47, lines 4-9:
“Arrange Final Determination of Language in
Trust Contract: Without further delay, a judicial
review of the meaning of language in the six-page
Trust Contract should be arranged in one or two
steps. First, this Court should act to determine the
unambiguous character and meaning of the
language as affirmed by New Mexico trust
expert James F. Beckley. Second, if needed, a
mandate should be returned to the District Court
to promptly proceed with a Mark V evidentiary
review of the language.” (emphasis added)
None of the parties in this Case argued that the
language in Seton Family Trust Agreement is
ambiguous and a top New Mexico trust expert,
James F. Beckley, Esq., has testified in a ten-page

- 17a-

affidavit that the language is unambiguous.1 [RP
0565] Mr. Beckley also testified that DefendantAppellee Catron’s two-page written opinion of March
15, 2000 that held sway in the 2002 Probate Case is
sufficiently far enough from the true meaning of the
language to invoke the probate fraud statute. [RP
0565]
It is an established power of the New Mexico Court
of Appeals to render final legal opinions on the
meaning of contract language under the Declaratory
Judgment Act,. NMSA §44 et seq. and its inherent
authority. “Where evidence is documentary, this
court is in as good a position as was the trial court to
determine the facts and is not bound by the trial
court's findings.” Lowe v. Bloom, 1991- NMSC-058, t
8, 112 N.M. 203, citing to House of Carpets Inc. v.
Mortgage Inv. Co., 85 N.M. 560, 514 P.2d 611 (1973).
This Court has the authority to review the language
in the six-page Seton Family Trust Agreement on a
de novo basis - not to determine the meaning of
some predetermined ambiguity, but to establish its
unambiguous meaning if possible. Seventeen years of
litigation come down to this one job that this Court
has the power - and also the duty - to perform.
II. ERRORS IN PROCEDURAL HISTORY OF
MEMORANDUM OPINION
Over the seventeen years of litigation that has
occurred in six separate actions, numerous

1 The only finding of ambiguity was produced in a District
Court Order by Judge James Hall dated February 6, 2007, the
effect of which was, on appeal according to Judge Alarid of this
Court, to make all of Judge Hall’s orders of February 6, 2007
“non-final.”

- 18a -

arguments, documents, findings and orders have
been added to the case record. It is easy to pick a
particular item and report it incorrectly with regard
to content or context. Plaintiff-Appellants believe
there is sufficient error in the procedural history of
the September 11, 2019 Memorandum Opinion of
this Court to warrant suspending its effect until a
complete and correct understanding of the
procedural history of this Case can be incorporated
into the final determination by this Court based on
further review of the issues presented in the Brief-inChief.
The following eleven erroneous or misconstrued
parts of the procedural history presented in Parts I
and II of the Memorandum Opinion stand out and
should be addressed in a rehearing of this Case:
1. Final Appealable Order (Memorandum Opinion,
p.l, lines 18-21): In preparing the Brief-in-Chief,
Plaintiff-Appellants never argued that District Court
dismissal of the Rule 1-060(B)(6) Motion was not a
final appealable order. Plaintiff-Appellee Catron
argued that in his response pleading.
2. Injunctive Relief Order (Memorandum Opinion., p.
4, lines 8-23): No final determination of the issues in
this appeal is possible without understanding the
background of the November 1, 2011 Order for
Injunctive Relief, an order that should be declared
null and void because of the issuing judge who ruled
in the 2011 Declaratory Case, a case filed by attorney
David Standridge on behalf of all seven beneficiaries
named in the Seton Family Trust Agreement to
support probate fraud claims arising from a
corrupted probate proceeding. Then-Judge (now
Justice) Barbara J. Vigil issued the injunction in the
- 19a-

Declaratory Case, and was the presiding judge in the
corrupted probate proceeding, In Re Burr E. Lee Jr.,
D-101-PB-2002-0163. Plaintiffs-Appellants contend
this was a violation of NMRA Rule 21-102 which
requires that “[a] judge shall act at all times in a
manner that promotes public confidence in the
independence, integrity, and impartiality of the
judiciary and shall avoid impropriety and the
appearance of impropriety.”
3. Probate Fraud Claim Details (Memorandum
Opinion, p. 6, lines 1-4): Plaintiff-Appellants never
alleged that any of the beneficiaries (including
Plaintiff-Appellants) along with “first successor
trustee Burr E. Lee Jr” were told by a DefendantAppellee that “Mr. Lee could transfer a Trust asset
out of the Trust to a family hospice nurse in violation
of the terms of the Trust.” That the first successor
trustee Burr E. Lee Jr. was told anything about the
trust agreement by Defendant-Appellee Catron was
kept from all beneficiaries as a deep, dark secret
during the entire 2002 Probate Case. Mr. Catron’s
role as attorney to the first successor trustee was not
generally known during the Probate Case when he
and Defendant-Appellee Wirth were unbeknownst to
the beneficiaries at the time, representing the
interests of the hospice nurse against the interests of
the second successor trustee, a former client, in
direct violation of the Rules of Professional Conduct.2
2 NMRA §16-109(C) Former representation. A lawyer who
has formerly represented a client in a matter or whose present
or former firm has formerly represented a client in a matter
shall not thereafter: (1) use information relating to the
representation to the disadvantage of the former client

-20a-

Plaintiff-Appellants only learned about Mr. Catron’s
role as attorney for the first successor trustee during
the 2003 Post-Probate Case and did not come into
possession of Mr. Catron’s two-page opinion letter of
March 15, 2000 [RP 0407-8] pertaining to language
in the trust contract until January 2007 during the
2006 Probate Fraud Case.
4. Pro Se Representation Details (.Memorandum
Opinion, p. 6, lines 8-17): In noting “that Plaintiff
persisted in attempting to represent the Trust
despite repeated rulings that he could not do so
because he was not an attorney” the Memorandum
Opinion completely ignores the following ten
important facts:
(i) that there were only four such “repeated” rulings,
three by Judge Hall of the District Court and one by
Judge Alarid of this Court;
(ii) that three of the rulings, Judge Hall’s first two (in
February 2007 and March 2008 and Judge Aland’s
one (in June 2008) were overturned by the Opinion of
Judge Sutin of this Court in the Attorney
Malpractice and Fraud Case, Lee v. Catron et al. (in
September 2008);
(iii) that Plaintiff-Appellant had correctly argued for
more than two years that there was no legal trust
entity (like an LLC) in this Case;
(iv) that, unprompted by any of the parties to the Lee
v. Catron, et al. appeal, Judge Sutin set forth a new
legal basis for requiring that Plaintiff-Appellant
litigate through a licensed attorney, namely, that as
a fiduciary the trustee is representing others (the
beneficiaries) and is therefore practicing law without
a license in acting for these others;

- 21a -

(v) that Judge Hall’s third and final ruling, the last
of the four “repeated” rulings, came in March 2009
when he used Judge Sutin’s then published case law,
Lee v. Catron, 2009-NMCA-018, to dismiss all of the
claims in the Fraud and Conspiracy Case, Seton et
al. v. Wirth et al, 2008 (filed pro se before the Sutin
ruling in Lee);
(vi) that the claims dismissed by Judge Hall on the
basis of Lee v. Catron, 2009-NMCA-018 properly
included the claims of the Plaintiff-Appellant,
Trustee (brought as trustee pro se) but quite
inexplicably also included the claims of the PlaintiffAppellant, Beneficiary (brought as beneficiary pro se)
for which Lee, a case involving only the trustee, had
no application whatsoever;
(vii) that in 2009 Plaintiff-Appellant, Trustee
petitioned the United States Supreme Court (USSC)
for certification of an appeal of the new case law Lee
v. Catron, 2009-NMCA-018 on the basis that the case
law was ad hoc, conflicted, and in violation of the
Fifth and Fourteenth Amendments to the United
States Constitution;
(viii) that when the USSC denied certification in
October of 2009, Plaintiff-Appellant, Trustee
petitioned for a rehearing;
(ix) that when the petition for rehearing was denied
by the USSC on November 30’ 2009, attorney David
Standridge was retained and entered this Case less
than a week later;
(x) that Lee v. Catron, 2009-NMCA-018 is current
case law in New Mexico which affects any unwitting
pro se fiduciaries in conflict with the interests of
licensed attorneys.

-22a-

5. Nature of Claims in this Case (.Memorandum
Opinion, p.6, lines 18-20): Plaintiff-Appellants have
always sought money damages in this Case3 and
have never sought to “recover an asset - the house
referred to as the Timberwick Property- for the Trust
so that it can be distributed to himself as
beneficiary.” This erroneous characterization of the
claims in this Case first appeared in 2008 in the two
Preliminary Disposition Notices issued by Judge
Alarid of this Court.
6. Status of Claims in this Case (Memorandum
Opinion, p.7, lines 1-8): The status of PlaintiffAppellants’ original claims in this Case as described
in the Memorandum Opinion are incorrect. The
correct status is described in Section II, B, 1 of the
Brief-in-Chief (pp. 16-20). In summary, Judge Alarid
of this Court established in the consolidated appeal
of Judge Hall’s five orders (i) that, until a final
determination of the meaning of the language in the
trust contract is established, every order is non-final
since all claims are “inextricably linked” to whether
or not the trust contract was breached and (ii) that
dismissal of the claims of the trustee would be
sustained on the basis that the “Trust” was a legal
entity that needed to be represented by a licensed
attorney - a basis that was subsequently overturned
by the finding by Judge Sutin of this Court in Lee v.
Catron et al. that there is no trust entity in this
Case. The meaning of language in the trust contract
still remains undetermined and, since the failure of
the Lee appeal to get certification from the United

3 Under NMSA §45-1-106(A), Probate fraud, and NMSA §36-217, Attorney deceit or collusion

-23a-

States Supreme Court, two separate licensed
attorneys have generally represented PlaintiffAppellants.
7. This Court’s Remand bv Judge Alarid (.Memora­
ndum Opinion, p.7, lines 15-20):
There is an
assumption implicit in the Memorandum Opinion
that the Mandate delivered to the District Court in
September of 2008 is a valid instruction from this
Court. What the effect on a Mandate of having the
basis for the underlying opinion overturned on a
subsequent appeal is an unaddressed issue. The
June 28, 2008 Opinion and subsequent Mandate
appear to have no authority or force of law. Even
though Judge Sutin sustained the need for a trustee
to be represented by an attorney, Plaintiffs-Appellants
had been arguing correctly for over two years that
there was no trust entity and that turned out to be
the case. Based on this ruling, Judges Hall and
Alarid turned out to be wrong. This Court, during a
rehearing of this appeal, should address the question
of what effect a new rule created by this Court has
on the status of claims filed over two years earlier.
8. Plaintiff-Appellants’ Attorney on July 30. 2010
{Memorandum Opinion, p.7, lines 4-8):
The
Memorandum Opinion states that as of July 30,
2010, Plaintiff-Appellant, Trustee had “still not
secured counsel for himself as Trustee.” This is not
correct. Attorney David Standridge entered this Case
in early December 2009, filed the Motion to
Intervene that was at issue in July of 2010, attended
the March 17, 2011 hearing that resulted in the
dismissal of claims, filed the 2011 Declaratory Case,
and had an on-going attorney-client relationship
with Plaintiff-Appellants until the first part of 2012

- 24a-

when he withdrew to pursue running for Judge, at
which time attorney Charles Lakins entered
appearance.
9. Failure to Join an Indispensible Party (Memorandum Opinion, p.8, lines 10-13): The decision about
whether or not to join an indispensible party was not
discretionary to Judge Singleton in her March 17.
2011 dismissal of all claims in this Case. The Trustee
was present in court appearing through licensed
counsel so there was no legal obstacle to joinder. No
other factors need to be considered to see that this
was an incorrect ruling and contrary to law.
10. Rule 1-059(E) Motions (Memorandum Opinion,
p. 9, lines 1-9): The Memorandum Opinion states
that the request for a final determination of
language in the trust contract contained in PlaintiffAppellants Rule 1-059(E) motions for reconsideration
of Judge Singleton’s dismissal orders were somehow
untimely and properly dismissed. To the extent that
these motions are requesting a final determination of
language in the trust contract, these motions are
timely even today, eight years later. The long­
standing obstruction of review of trust contract
language by the Defendents-Appellees and the
failure of the judiciary to have conducted a review,
when required under Mark V., Inc. v. Mellekas, 1993NMSC-001, T[ 13, 114 N.M. 778, shows that the
fundamental relief sought by Plaintiffs-Appellants
was never factually addressed. The PlaintiffAppellants have been denied access to the one fact
needed to prove all of the original claims in
this Case. There has been “thrown sand in the
workings of the New Mexico judicial system.” This
Court should address this issue in a rehearing
process in this Case.
- 25a-

11. This Court and Trust Contract Language Review
(Memorandum Opinion, p.9, lines 1-9): To under­
score how simple yet crucial this question of trust
contract language actually is, Plaintiff-Appellants
reproduce, in the following lines, argument and
language facts presented by the Plaintiff-Appellant,
Trustee in his NMRA 1-059(E) motion titled
Plaintiff-Trustee’s Motion to Reconsider Dismissal
dated April 11, 2011 [RP 1169, § 9, pages 3 and 4]:
[9.] From evidence developed during this Case, it
has become apparent that the transfer of family
property to the hospice nurse was part of a multi­
year professional fraud planned years before the
loss of family property became known to PlaintiffTrustee after the death of Burr E. Lee, Jr.. One
piece of evidence stands out from all the others in
stark clarification of the central deceit at the
center (sic) of this fraud. Embedded in a letter
written to the first successor trustee by Defendant
Catron on March, 15, 2000 prior to drafting,
witnessing and filing the Warranty Deed that
transferred the family home to the hospice nurse
is the following statement of legal opinion
regarding the language in the trust agreement:
“As I read the language, you may not
amend or revoke the trust “in regard to
successor beneficiaries.” This means that
you may amend and modify the trust as you
want except that the successor beneficiaries
must not be altered.” [Catron, 3/15/00]
The deceit in this opinion becomes clear when
compared with the original language from the
trust agreement:

-26a-

“Upon the death of BURR E. LEE, JR. or
RUTH C. LEE, this trust may not be
revoked or amended in regard to successor
beneficiaries.” (Trust Agreement, 5/9/79]
The correspondence between the defendants
during the probate proceeding showed how this
deceit was used to avoid or evade judicial review
or any other legal scrutiny of the family trust
agreement.
A professional assessment of this language and all
other key language in the six-page Seton Family
Contract can be found in the ten-page affidavit
prepared by top New Mexico trust expert James F.
Beckley in April 2007. [RP 0565] However, even
simple understanding of the English language is
enough to show that it is the trust contract that can
be revoked (all or nothing) and the list of successor
beneficiaries that can be amended (changes made).
This language is the overarching issue to be
addressed in a rehearing; it is within the powers of
this Court and it is the duty of this Court to deal
with this question of legal interpretation.
CONCLUSION
Plaintiff-Appellants contend the complete procedural
history shows that
(i) undisputedly title to valuable family property
legally held by the Plaintiff-Appellant, Trustee for
the beneficial interest of the Plaintiff-Appellant,
Beneficiary and six other family member beneficia­
ries was transferred to someone who was not named
in the language of the Seton Family Trust Contract;

-27a-

(ii) there is substantial authoritative evidence on
the record that this property transfer was done in
breach of the terms of this Trust Contract;
(iii) no final determination of the meaning of the
language in this Trust Contact has been provided by
any New Mexico Court in spite of repeated formal
legal requests to do so;
(iv) Defendant-Appellees interposed a defense
against the pro se claims of the Plaintiff-Appellant,
Trustee that an attorney was needed to represent the
trustee because they argued there was some sort of
legal entity involved under the Trust Contract;
(v) Judge Hall of the District Court issued an Order
Dismissing the Claims of the Trustee on this trust-aslegal-entity basis and Judge Aland of this Court
issued a Memorandum Opinion sustaining this
dismissal of the trustee’s claims on the same trust as-legal-entity basis and then, based on his
Memorandum Opinion, issued a Mandate back to the
District Court to review whether the claims of
Plaintiff-Appellant, Beneficiary should be dismissed
without the presence of the trustee;
(vi) Judge Sutin then overturned the trust-as-legalentity basis of all of the previous activity on
dismissal of the trustee’s claims with an Opinion,
subsequently published as Lee v. Catron, 2009NMDA-018, establishing that there was no legal
entity involved and that the trustee was the correct
person to sue and be sued - admitting in the Opinion
that Plaintiff-Appellant, Trustee had been arguing
correctly for more than two years and that
Defendant-Appellees and Judges Hall and Alarid
had been wrong;

- 28a-

(vii) Judge Sutin then included in his Opinion that
Plaintiff-Appellant, Trustee still needed to have an
attorney because of his status as a fiduciary and in
pro se representation of the interest of others (the
beneficiaries) a trustee is practicing law without a
license;
(viii) Plaintiff-Appellant, Trustee appealed this new
Lee v. Catron case law up to the U.S. Supreme Court
as ad hoc, conflicted and unconstitutional;
(ix) as soon as the Lee appeal was exhausted,
attorney David Standridge entered this Case
representing both Plaintiff-Appellants;
(x) Judge Singleton of the District Court, acting
under the flawed Mandate from Judge Alarid, denied
the joinder of the trustee that had been requested by
Mr. Standridge even though such joinder was
mandatory under the law, dismissed all claims in
this Case for lack of a trustee, and suggested that
Mr. Standridge could still obtain a final
determination of the meaning of trust language in a
new case;
(xi) in a new Declaratory Case filed by Mr.
Standridge on behalf of all seven living beneficiaries
under the trust contract, Judge Barbara J. Vigil
summarily dismissed the case and issued an Order
for Injunctive Relief against Plaintiff-Appellants; and
(xii) under the severe restrictions imposed by Judge
Vigil’s injunction, the five-year long effort on the
Rule 1-060(B)(6) Motion to reverse Judge Singleton’s
dismissals on the basis of “extra-ordinary
circumstances” became the subject of this appeal
after it was denied by the District Court.

- 29a-

The Plaintiffs-Appellants submit that the New
Mexico Courts should deliver a final determination of
the meaning of language in the Seton Family Trust
Contract. Doing so would be consistent with the
statutory intent of the New Mexico Legislature and
the clear obligation of the judiciary.
WHEREFORE, Plaintiffs-Appellants respectfully
request the New Mexico Court of Appeals suspend
the effect of its September 11, 2019 Memorandum
Opinion and undertake further review of the current
Appeal in this Case using the legal and factual
particulars presented above to produce an amended
final determination (i) that the District Court has
erred, (ii) that overturns the Order denying PlaintiffAppellant’s Rule 60 Motion, and (iii) that enters such
further consistent and appropriate relief.
Respectfully Submitted,
[signed]
Lakins Law Firm, P.C.
Charles N. Lakins, Esq.
PO Box 91357
Albuquerque, NM 87199
Certificate of Service
I, Charles N. Lakins, Esq. do hereby certify that on
the 25th day of September 2019, I served a copy of
this Motion fir Rehearing to all counsel of record
utilizing the Odyssey e-file and serve system.
[signed]
Charles N. Lakins, Esq.

- 30a-

Pet. App. No. 6 (Recent Appellate Record)
Plaintiff-Appellants' Petition for a Writ of Certiorari
Filing Date: November 7, 2019
Supreme Court No.________
Court of Appeals No. A-l-CA-35704
IN THE SUPREME COURT OF THE STATE OF
NEW MEXICO
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN AUKEN, Beneficiary
Plaintiffs-Petitioners,
v.
FLETCHER R. CATRON, ESQ.,
PETER F. WIRTH, ESQ., and
KAREN AUBREY, ESQ.
Defendant-Respondents.
PETITION OF THE
PLAINTIFF-TRUSTEE AND THE PLAINTIFFBENEFICIARY
FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF THE STATE
OF NEW MEXICO
Richard A. Van Auken, pro se
Plaintiff-Trustee-Petitioner and
Plaintiff-Beneficiary-Petitioner
223 North Guadalupe Street; #605
Santa Fe, New Mexico 87501
sftrustcase@swcp .com
917/216-0523

- 31a-

INDEX TO PETITION AND ATTACHMENTS
Cover Page with Caption
Index to Petition and Attachments
BODY OF PETITION
I. Date of Decision
II. Questions Provided for Review
III. Statement of Material Facts
General Facts About Case
Appellate Review in This Case, VanAuken v.
Catron et al. (2006)
IV. Basis for Granting the Writ
Rule of Law
Due Process
V. Argument
Appellate Failure to Review Language in
Trust Contract
Glaring Conflict of Interest in Order for
Injunctive Relief
Ad Hoc and Conflicted Case Law in Lee v.
Catron
VI. Relief
Certification of Service
Notice of Compliance Pursuant to NMRA Ride 12-502(E)
ATTACHMENTS
Tab 1: Ct. App. Opinion [Judge M. Samora] dated
9/11/19
Tab 2: Plaintiffs-Petitionerss’ Motion for Rehearing
dated 9/26/19
Tab 3: Ct. App. Order Denying Motion for Rehearing
dated 10/8/19

- 32a-

I. DATE OF DECISION
The Court of Appeals entered a Memorandum
Opinion in this matter on September 11, 2019.
Acting through the law firm of Charles Lakins, Esq.,
Plaintiffs-Petitioners Richard A. Van Auken, Trustee
and Richard A. Van Auken, Beneficiary filed a timely
motion for rehearing on September 26, 2019 that was
denied on October 8, 2019. The Memorandum
Opinion, Motion for Rehearing, and Order denying
rehearing are each attached to this Petition.
II. QUESTIONS PRESENTED FOR REVIEW
1. Whether New Mexico courts properly have the
option of not making a final determination of the
meaning of disputed language in an express trust
contract when asked to do so by a trustee and/or
beneficiary named in the instrument.
2. Whether, in a New Mexico court proceeding, a
court order against a party’s claims or cause that is
issued by a judge who has a clear or self-evident
conflict of interest with regard to these claims or
cause can be properly seen as null.
3. Whether New Mexico case law entitled Lee v.
Catron, NMCA-2009-018 has, (i) in two paragraphs
overturning a district court finding that an express
trust is a legal entity, been properly applied to
earlier court actions taken in this 2006 case now
under appeal and is, (ii) in two paragraphs finding
that a trustee (or any fiduciary) acting on behalf of
another person’s beneficial interests is “practicing
law,” legal and valid.

- 33a-

III. STATEMENT OF MATERIAL FACTS
General Facts About Case
This is the second appeal in a thirteen-year-old
probate fraud and attorney deceit or collusion Case
brought in 2006 by a family member trustee who is
one of seven family beneficiaries against three
licensed New Mexico attorneys for their actions in a
corrupted
probate
proceeding
involving
approximately $1 million of Santa Fe real property
formerly owned by the family member’s great uncle,
New Mexico naturalist Ernest Thompson Seton.
Whereas the first appeal filed in 2007 involved two
issues - the meaning of language in the family trust
agreement and the ability of a pro se trustee to act in
a New Mexico court - in an initial round of claim
dismissals; this second appeal initiated in 2016
involves just one issue - the extraordinary repeated
abuse of the equity powers of New Mexico Courts by
several district and appellate judges - in a full
dismissal of all claims against all defendants.
The first set of general facts that have emerged in
this Case involve three generations of Seton family
members and a confluence of predatory interests in
the legal, healthcare and judicial communities of
New Mexico that acted together over many years to
“redirect” or “take” family property being transferred
to the current generation through a family trust
agreement, a common law express trust, facts that
include the following:
• the actions of a licensed New Mexico hospice nurse,
Marie Harrison, directly linked by sworn testimony
to Defendant-Respondent Peter F. Wirth, Esq., who
violated her nursing ethics by entering into a long
-34a-

term personal relationship with the first successor
trustee and co-settlor after completing her work
during the death of his wife, the other co-settlor
and Seton grand-niece, and then got the successor
trustee to sign over to the Seton property in the
family trust estate;
• the actions of Defendant-Respondent Fletcher R.
Catron, Esq. in providing, as counsel to the first
successor trustee, a secret legal opinion (withheld
from trust beneficiaries) that allowed transfer of
family property from the trust estate to the hospice
nurse; in creating and filing a Warranty Deed
transferring the Seton family home and adjacent
property to the hospice nurse; in creating a new
Will naming the hospice nurse as his personal
representative after his death; and in filing the
probate case for the estate of the first successor
trustee (where the claims in this Case originate) for
the personal representa-tive against the interests
of his former client the trustee (the newly
established second successor trustee and Seton
great- grand-niece);
• the actions of Defendant-Respondent Peter F.
Wirth, Esq. in his probable contact with the hospice
nurse during the time of her improper personal
engagement with the first successor trustee and, as
one of the three attorneys in control of the probate
proceeding representing the personal interests of
the hospice nurse in retaining ownership of Seton
property improperly taken from the trust estate; in
his use of Mr. Catron’s secret opinion as part of her
defense; and in his defense of the hospice nurse in a
post probate proceeding; and

- 35a-

• the actions of Defendant-Respondent Karen
Aubrey, Esq., as one of three attorneys in control of
the probate proceeding representing the interests
of the trustee and beneficiaries, in her recitation of
the key element of Mr. Catron’s secret opinion as
part of her correspondence with her clients; in
failing to advise her clients that an enforceable
trust contract had possibly been breached; and in
withdrawing from the probate proceeding rather
than pursuing this breach.
This first set of facts demonstrates clear corruption
of the probate proceeding presided over by Judge
(now Justice Barbara J. Vigil, a deceitful legal
opinion authored by Defendant-Respondent Fletcher
R. Catron and collusion between the three attorneys
involved in the probate proceeding to use this
interpretation of trust contract language provided by
Mr. Catron to suppress any review of the Seton
Family trust contract, an enforceable instrument,
during the probate proceeding.
The second set of general facts that have emerged in
this Case involve the actions of a series of New
Mexico judges that uniformly opted to suppress the
Seton family trust contract and to not address
determination of the meaning of its language in spite
of several requests to do so. A brief summary of this
second set of general facts include the following:
• the decision of Judge (now Justice) Barbara J. Vigil
to allow the withdrawal of Seton family attorney
Karen Aubrey from the probate proceeding without
explanation eliminating thereby any further
discussion of the trust contract language during
that proceeding;

- 36a-

• the decisions of Judge Carol Vigil in the post­
probate proceeding (i) to allow the entry by
attorney Peter Wirth of expert testimony from
attorney Fletcher Catron pertaining to the meaning
of language in the trust contract after she had
signed an order barring such expert testimonythat had become available from New Mexico trust
expert James F. Beckley, Esq. - until the court had
made a determination of language ambiguity and
then (ii) to dismiss the claims against the hospice
nurse in that proceeding with prejudice without
ever having reviewed the trust contract language;
• the decisions of Judge Hall in the early months of
this probate fraud case (i) to issue a non-final
finding of language ambiguity in the trust contract,
(ii) to opt out of any further review of the language
after the entry of an authoritative affidavit on the
subject was submitted from New Mexico trust
expert James F. Beckley stating that the language
was unambiguous and directly contradicted the
“secret” legal opinion of Mr. Catron, and, ultimately
(iii) to step down from the bench without any
further review of the trust language with regard to
possible non-ambiguity or in a Mark V fact finding
review to determine the meaning from extrinsic
testimony outside the language;
• the decisions of Judge Sarah Singleton in the
middle years of this probate fraud proceeding (i) to
deny the re-entry of the trustee into this case even
though there was no impediment to such entry and
in spite of the fact that the trustee never should
have been removed in the first place because Judge
Hall used a “trust-as-entity” legal principle that
was determined to be invalid on appeal in a
- 37a-

subsequent related case and (ii) to dismiss all
claims in this probate fraud case for lack of a
trustee opting to avoid any further consideration of
the language in the trust contract while
recommending that then-counsel for plaintiffs,
David Standridge, Esq., could pursue the meaning
of trust language in a separate declaratory action;
• the decisions of Judge (now Justice) Barbara J.
Vigil in the middle years of this probate fraud
proceeding (i) to assign herself as the presiding
judge in a new declaratory action filed by Mr.
Standridge (on behalf of the trustee and all seven
beneficiaries) in spite of the obvious conflict with
her earlier role in the corrupted probate
proceeding; (ii) to dismiss the declaratory judgment
case based on the earlier non-final finding of
“ambiguity” by Judge Hall; and (iii) to enter an
Order for Declaratory Relief against PlaintiffsPetitioners for continuing to pursue declaratory
and other relief;
• the decision of Judge David K. Thompson during
the recent years covered by consideration of
Plaintiff-Appellants Rule 60 Motion to deny a
request through counsel to depose attorney William
Joost of Wisconsin, the author of and witness to the
six-page Seton Family Trust Contract in 1978, a
legal request to preserve the testimony of this
person with
personal
knowledge
of the
circumstances under which Seton property was
placed into a trust estate in the event that,
following judicial review of the Beckley testimony
that the language is unambiguous, such extrinsic
evidence should be needed.

- 38a-

This second set of facts demonstrates the repeated
opting out of any effort to determine the meaning of
language in the trust contract by five successive
district court judges.
Appellate Review in this Case. Van Auken v. Catron
et al. (20061
The current appeal of the district court ruling in a
Rule 60 motion is the second appeal made by
Plaintiffs-Petitioners in this Case. The first appeal
made in 2007 was reviewed by Appellate Judge Alarid
who, in a first Proposed Summary Disposition stated
that the ambiguity finding by Judge Hall was a non­
final (unappealable) order and since all other issues
were “inextricably linked” to the meaning of language
in the trust contract, all of the dismissal orders issued
by Judge Hall were also non-final (and unappealable).
After argument from opposing counsel, Judge Alarid
issued a second Proposed Summary Disposition stating
that the consolidated appeal would be dismissed
because the entire case turned on the standing of the
trustee and the pro se appearance of the trustee voided
all his claims because the trust was an entity like a
Limited Liability Company and needed to appear in
court through an attorney. Although this “trust-asentity” ruling was overturned in a related case just
three months later, the Mandate resulting from this
appellate action went forward as if nothing had
happened.
This current appeal, started in 2016, addresses the
actions of judges rather than the claims against
attorneys that are in the original Complaint. There has
been, as documented in the Brief in Chief, repeated
abuse of discretion by district and appellate judges in

- 39a-

opting to avoid any determination of the meaning
language in the trust contract.
The choice of avoiding any appellate review of the
language in the trust contract has been built into the
procedures used in each of the two appeals in this Case.
The 2007 appeal was put on the Summary Calendar of
the appellate court where it stayed even though
Plaintiffs-Appellants argued for a transfer to the Legal
Calendar that would focus on review of the language in
the trust contract, already at that time (twelve years
ago) the central issue in this Case.
Unlike the first appeal, in the current appeal, the
appellate procedures placed this Case on the General
Calendar, a much more costly and lengthy process of
review involving all papers and transcripts over many
years. In making this General Calendar election, the
appellate court didn’t use the Legal Calendar opting
again to avoid the central issue in the Case in favor of a
process that might further blur or bury any review of
language.
IV. BASIS FOR GRANTING THE WRIT
Rule of Law
The first basis for granting this petition rests
in the rule of law and in the judicial enforcement of
civil contracts. The initially secret legal opinion of
March 15, 2000 regarding the meaning of language
in the Seton Family Trust contract as expressed by
Defendant-Respondent Fletcher R. Catron has been
allowed to stand for nearly twenty years as the legal
basis for actions regarding valuable Seton family
property taken from the trust estate. During this
period Plaintiffs-Appellants have repeatedly to no
avail asked for a judicial determination of what the
- 40a -

language in the trust contract actually means. For
most of these requests the authoritative affidavit of
New Mexico trust expert James F. Beckley has been
available to the court with with an opinion that is
opposed to that of Mr. Catron. If the rule of law is to
have any meaning in New Mexico, the judiciary must
act to enforce civil contracts resolving the differences
between different opinions.
Due Process
Another equally important basis for granting this
petition is the Constitutional guarantee of “due
process” in the taking of property that is expressed in
Amendments Five and Fourteen.
PlaintiffsAppellants have not received due process in the
taking of property from the trust estate because the
New Mexico Courts have been unable or unwilling to
provide a final determination of the meaning of
language in the trust contract that governs such
property transfers.
An alternative way of viewing this due process
deficiency is as fraud on the court, a still actionable
condition that arises when the normal operation of
judicial considerations are thwarted by the
intentional withholding by one or more parties of
facts essential to due process. It should be apparent
to all by this time that a judicially determined
meaning of the language in the Seton Family Trust
Contract provides the only basis for sustaining the
claims made in the Case. It is as if one or more
parties have intentionally “thrown sand in the
judicial machinery” applied to this Case to prevent it
from functioning as it should.

-41a-

V. ARGUMENT
Appellate Failure to Review Language in Trust Contract
On page 9 of the September 11, 2019 Memorandum
Opinion, the Court of Appeals correctly recognized
Plaintiffs-Appellants’ argument that there was
“cumulative abuse of discretion over fifteen years of
litigation” but incorrectly characterized the
argument as based on “not making a final
determination of the meaning of ambiguous language
in the Trust.” The Memorandum Opinion went on to
point out that the Court of Appeals is not a fact­
finding body and cannot resolve a legal ambiguity
with extrinsic evidence.
Appellate Judge M. Zamora joined many other
judges identified in this appeal who over the years
have opted to use arbitrary and often incorrect
reasons for avoiding the need to determine the
meaning of language in the trust contract. This is not
the same as determining the meaning of “ambiguous
language.” New Mexico trust expert James F.
Beckley did not find the language to be ambiguous.
Neither did Defendant-Respondent Catron. How does
the Court rule on this?
Glaring Conflict of Interest in Order for Iniuncontive Relief
If one looks up the case records of the 2002 probate
proceeding that gave rise to all these years of
litigation, one find the name of the presiding judge
entered at the very top of the public record to be
Judge (now Justice) Barbara J. Vigil. How could she
possible be assigned - or allow herself to be assigned
to the 2011 Declaratory Case where the central
feature of this Case and the corrupted aspect of the
probate case was to be reviewed.

- 42a -

The conflict of interest in this instance is so stark
that all of Judge (now Justice) Vigil’s actions in this
Case should be regarded as null.
Ad Hoc and Conflicted Case Law in Lee v. Catron
In the summer of 2008 not satisfied with simply
overturning the earlier “trust-as-entity” finding used
by Judges Hall and Alarid in earlier dismissals,
Judge Jonathan B. Sutin attempted to provide a
legal fix for the current Case. He determined that
the Trustee — or any fiduciary for that matter — while
acting on behalf of the beneficial interests of others,
is “representing” these “others” in the same manner
as an attorney would represent a client. Accordingly,
any fiduciary who argues his legal interests in a New
Mexico court must either be a licensed attorney or
hire one to represent him or face charges of
“practicing law without a license.”
The attorney client relationship is nothing like that
which exists between a trustee and those in whose
beneficial interest he works.
VI. RELIEF
Plaintiff-Petitioners,
Trustee
and
Beneficiary
respectfully ask this Court to provide relief for all
parties by granting this Petition and ordering a
competent authority within the New Mexico Courts
to resolve the differences between the legal opinions
of Defendant-Respondent Fletcher R. Catron - as
expressed in his two-page letter to the first successor
trustee of March 15, 2000 [RP0407] - and New
Mexico trust expert James F. Beckley - as expressed
in his ten-page affidavit of April 2, 2007 [RP0565] and to make a final determination of the meaning of
the language in the Seton Family Trust Contract

-43a-

[RP0013-0018] under the provisions of the New
Mexico Declaratory Judgment Act
Respectfully submitted,
[signed]
Richard A. Van Auken
Plaintiff, Trustee-Beneficiary-Petitioner, pro se
223 North Guadalupe St. #605
Santa Fe, NM 87501
sftrustcase@swcp.com
Telephone: (917) 216-0523
Certification of Service
I HEREBY CERTIFY that a true and correct copy of
the foregoing pleading was mailed this 7th day of
November 2019 to John M. Brant (for Defendant
Catron), Andrew G. Schultz (for Defendant Wirth),
and Gerald G. Dixon (for Defendant Aubrey)
[signed]
Richard A. Van Auken

- 44a -

Pet. App. No. 7 (Recent Appellate Record)
N.M. Supreme Court Notice of Filing
Filing Date and Time: November 7, 2019 at 11:32
AM
IN THE SUPREME COURT
OF THE STATE OF NEW MEXICO
No. S-l-SC-38001
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN3 AUKEN, Beneficiary,
Plaintiff-Petitioner,
v.

FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendants-Respondents.
NOTICE
To: Clerk of the New Mexico Court of Appeals
NOTICE is hereby given, in accordance with Rule
12-502 NMRA of the Rules of Appellate Procedure,m
that a petition for a writ of certiorari has been filed
in the above entitled cause. Please recall any
mandate which you may have issued in the case of
Van Auken v. Catron, Ct. App. No. A-l-CA-35704.
WITNESS, the Honorable Judith K. Nakamura,
Chief Justice of the Supreme Court of the State of
New Mexico, and the seal of said Court this 7th day of
November, 2019.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico
[signed]
[Zelda Abeita]
Deputy Clerk
- 45a-

Pet. App. No. 8 (Recent Appellate Record)
N.M. Supreme Court Notice of Filing
Filing Date and Time: November 27, 2019 at 11:34
AM
IN THE SUPREME COURT
OF THE STATE OF NEW MEXICO
No. S-l-SC-38001
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN3 AUKEN, Beneficiary,
Plaintiff-Petitioner,
v.

FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendants-Respondents.
NOTICE OF RECUSAL
WHEREAS, this matter came on for consideration
upon notice of recusal filed by Justice Barbara J.
Vigil;
NOW THEREFORE, the parties hereby are notified
of the rcusal of Justice Barbara J. Vigil.
WITNESS, the Honorable Judith K. Nakamura,
Chief Justice of the Supreme Court of the State of
New Mexico, and the seal of said Court this 27th day
of November, 2019.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico
[signed]
[Madeline Garcia]
Chief Deputy Clerk
-46a-

Pet. App. No. 9 (Recent Appellate Record)
N.M. Supreme Court Notice of Filing
Filing Date and Time: November 27, 2019 at 11:42
AM
IN THE SUPREME COURT
OF THE STATE OF NEW MEXICO
No. S-l-SC-38001
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN3 AUKEN, Beneficiary,
Plaintiff-Petitioner,
v.

FLETCHER R. CATRON, ESQ.;
PETER F. WIRTH, ESQ.; and
KAREN AUBREY, ESQ.,
Defendants-Respondents.
NOTICE OF RECUSAL
WHEREAS, this matter came on for consideration
upon notice of recusal filed by Justice David K.
Thomson;
NOW THEREFORE, the parties hereby are notified
of the rcusal of Justice David K. Thomson.
WITNESS, the Honorable Judith K. Nakamura,
Chief Justice of the Supreme Court of the State of
New Mexico, and the seal of said Court this 27th day
of November, 2019.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico
[signed]
[Madeline Garcia]
Chief Deputy Clerk
-47a-

Pet. App. No. 10 (Recent Appellate Record)
Plaintiff-Appellants' Motion for Rehearing
Filing Date: December 21, 2019
IN THE SUPREME COURT
OF THE STATE OF NEW MEXICO
No. S-l-SC-38001
RICHARD A. VAN AUKEN, Trustee and
RICHARD A. VAN AUKEN, Beneficiary
Plaintiffs-Petitioners,
v.
35,704

Ct. App. Case No.

FLETCHER R. CATRON, ESQ.,
PETER F. WIRTH, ESQ., and
KAREN AUBREY, ESQ.
Defendant-Respondents.
MOTION FOR REHEARING, WHEN
APPROPRIATE,
THE PETITION OF THE
PLAINTIFF-TRUSTEE AND THE PLAINTIFFBENEFICIARY
FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF THE STATE
OF NEW MEXICO
Richard A. Van Auken, pro se
Plaintiff-Trustee-Petitioner and
Plaintiff-Beneficiary-Petitioner
223 North Guadalupe Street; #605
Santa Fe, New Mexico 87501
sftrustcase@swcp.com
917/216-0523
- 48a-

I. PROCEDURAL BASIS FOR REHEARING
MOTION
Plaintiffs-Petitioners Richard A. Van Auken, Trustee
and Richard A. Van Auken, Beneficiary acting jointly
pro se filed a timely Petition for a Writ of Certiorari
to the Court of Appeals of the State of New Mexico on
November 7, 2019 and subsequently filed a Motion to
Amend the petition on November 24, 2019. On
December 6, 2019, the Chief Justice of the Supreme
Court of the State of New Mexico, Judith K.
Nakamura, issued (i) a Notice of Recusal for Justice
Barbara J. Vigil and (ii) a Notice of Recusal for
Justice David K. Thomson. Also on December 6, 2019
the Chief Justice with Justices Michael E. Vigil and
C. Shannon Bacon concurring issued (iii) an Order
granting the Motion to Amend, and (iv) an Order
denying the Petition. This Motion for Rehearing,
When Appropriate is timely filed by PlaintiffsPetitioners on Monday, December 23, 2019, the first
business day following the expiration of the fifteenday period for filing under NMRA 12-404(A).

II. POINTS OF LAW AND FACT
MISAPPREHENDED BY THE COURT
1.Equity Theft Schemes in New Mexico: In early 2000
Defendant-Appellee Fletcher Catron, Esq., using his
own legal opinion dated March 15, 2000 as sufficient
justification, created a new will and warranty deed
for the first successor trustee of the Seton Family
Trust that had the effect of removing valuable family
property from the family trust upon the death of the
trustee. A probate proceeding filed by Mr. Catron and
a post-probate proceeding filed by the second
successor trustee both concluded without general
awareness of Mr. Catron’s underlying legal opinion
-49a-

by the second successor trustee or by any of the seven
beneficiaries of the family trust. In January 2007, six
months after the filing of the present Case,
VanAuken v. Catron et. al (2006) by the PetitionersPlaintiffs, the full text of Mr. Catron’s March 15,
2000 legal opinion was revealed in the form of a two
page letter to the first successor trustee. Shortly
thereafter, in April 2007, New Mexico trust expert
James F. Beckley, Esq. prepared a sworn statement
that called Mr. Catron’s March 15, 2000 legal opinion
into question, noted that the removal of family
property from the Seton Family Trust should have
been approved by a court of competent authority, and
asserted that the probate fraud statute, NMSA §451-106(A), would apply to the 2002 probate proceeding
(filed by Mr. Catron) for the estate of the first
successor trustee.
Mr. Beckley’s affidavit clearly states that Mr.
Catron’s March 15, 2000 legal opinion that allowed
the removal of valuable family property from the
family trust did not adhere to the language in the
trust instrument and, furthermore, that Mr. Catron
should not have acted as he did to remove property
from the family trust.
Mr. Catron acted to breach the family trust and then
filed the probate proceeding to cover up the breach.
In other words, Mr. Catron acted as an “equity thief’
improperly taking family property from members of
the Seton Family to whom the property was to be
transferred.
With the publication two years ago in the
Albuquerque Journal of the sordid details of a
similar equity theft scheme involving the Darnell
Family trust and the testimony given at hearings
- 50a -

held by the Adult Guardianship Study Commission
created by this Court in response to those
Albuquerque Journal articles, it is fully apparent
that equity theft is not unique to this Case. It has
surfaced in a great many New Mexico cases past and
present and it has revealed predatory attorneys,
corrupt judges and legislative protection for what is
apparently a very lucrative and growing business.
The seventeen-year history attached to this Case
provides an excellent record of how end-of-life equity
contracts such as family trusts can be subverted
(breached) and equity rights to valuable property
stolen before the intended recipients can take legal
title and, in some cases, even before they are aware
that they possess such valuable equity rights.
Petitioner-Plaintiffs suggest in this Motion for
Rehearing, When Appropriate that this Court has
significantly under-appreciated the significance of
addressing the very real equity theft issues raised in
this appeal as presented in the Brief in Chief.
Two justices of this Court named in the Brief,
Barbara J. Vigil and David K. Thomson, are now
recused in this Case and two of the justices
concurring in the Orders issued, Michael E. Vigil and
B. Shannon Bacon, should also be recused as they
are similarly conflicted in judicial review of equity
theft (i) in this Case where appellate judge Michael
E. Vigil “rubber-stamped” district judge Barbara J.
Vigil’s conflicted dismissal and injunction and (ii) in
the Darnell case where district judge Bacon entered
a last minute, no-notice recusal in the current
Darnell probate case. Such recusals, however, would
leave no possibility now for a three-justice review of
this Motion.
- 51a-

2. Failure to Resolve a Contractual Dispute: The
optics of the equity theft schemes now becoming
public in New Mexico are bad, but actual judicial
performance in legal review in equity theft cases is
far worse. In this Case, there can be no excuse for the
seventeen year failure - of multiple judges in district
and appellate courts - to render a final determination
of the meaning of language in a six-page family trust
agreement to resolve the difference in legal opinions
now on the record of this Case from Mr. Catron and
Mr. Beckley. (The primary difference turns on a
single 27-word sentence.) It isn’t as if these judges
haven’t been asked to make such a determination.
They simply are unable or unwilling to do so.
Petitioner-Plaintiffs suggest in this Motion for
Rehearing, When Appropriate that this Court has
misapprehended the overall effect of failing to deliver
a final Catron-vs-Beckley determination after
seventeen years of costly litigation. The New Mexico
Judicial Branch has delivered a costly failure in one
of its
most important functions:
contract
interpretation.
3. Alternative Means of Relief: By shutting down the
possibility of relief in this Case and in the current
appeal, Petitioner-Plaintiffs are left with just two
further options: a further appeal to the U.S. Supreme
Court and an entirely new case for fraud on the
court, a due process violation, where the State of
New Mexico is among the defendants.
Petitioner-Plaintiffs suggest in this Motion for
Rehearing, When Appropriate that this Court has
misapprehended the extent to which the failure to
perform its contract interpretation duty in equity

- 52a -

theft cases puts the general public in the State of
New Mexico at risk for damages.
III. CONCLUSION
Plaintiff-Petitioners, Trustee and Beneficiary
respectfully ask this Court to grant this Motion for
Rehearing, When Appropriate by extending the time
to make this decision until two new justices un­
conflicted in review of equity matters are appointed
or elected to the Court providing, thereby, the
necessary three-justice panel for review of this
Motion and the Petition.
Respectfully submitted,
Richard A. Van Auken
Plaintiffs-Petitioners, Trustee and Beneficiary, pro se
223 North Guadalupe St. #605, Santa Fe, NM 87501
[A true and correct copy of the foregoing pleading
was mailed this 21st day of December 2019 to John
M. Brant (for Defendant Catron), Andrew G. Schultz
(for Defendant Wirth), and Gerald G. Dixon (for
Defendant Aubrey)

- 53a-

PETITION APPENDICES: SECTION B
SETON FAMILY TRUST Agreement
"Burr E. Lee Jr. and Ruth C. Lee
Self-Declaration of Trust No. 10331J"
Pet. App. No. Document/Author it v
Page
11. Trust Contract: Burr E. Lee, Jr. and Ruth......55a
C. Lee Self Declaration of Trust No. 10331J
Signed by Settlors: May 9, 1779
12. Trust Language Advice in Letter to Trustee ... 66a
Entered in Court: January 30, 2007
13. Warranty Deed Transferring Seton Family..... 69a
Property Held by Trustee to Ruth Lee's
1992 Hospice Nurse Marie Harrison
Signed by Burr E. Lee, Jr.: June 12, 2000
14. Letter Describing Probate Representation ..... 72a
(Catron, Harrison/Estate; Aubrey, Trustee)
By Fletcher R. Catron: September 25, 2002
15. District Court Order on Extrinsic Evidence ... 73a
(by Judge Carol Vigil in related case)
Entered: April 11, 2004
16. Affidavit of Fletcher R. Catron on Attorney-... 74a
Client Relationsip with Trustee (excerpts)
(filed by Peter F. Wirth in related case)
Entered: July 10, 2004
17. District Court Order on Trust Ambiguity .... 75a
(by Judge James A. Hall)
Entered: February 8, 2007
18. Expert Affidavit on Trust Language ...
76a
(by James F. Beckley, attorney)
Entered: April 2, 2007
86a
17. Supporting Affidavit on Trust Language
(by William J. Joost, Settlors 1979 attorney)
Entered: October 31, 2008
- 54a-

Pet. App. No. 11 (Seton Family Trust Agreement)
Trust Contract: Burr E. Lee, Jr. and Ruth C Lee SelfDeclaration of Trust No. 10331J
Date of Execution: May 9, 1979
*******

(Trust Agreement - Page One) *******
State of Illinois:
County of Cook: SS (Sworn Statement)
BURR E. LEE, JR. and RUTH C. LEE SELF­
DECLARATION OF TRUST NO. 10331J
TRUST DECLARATION: We, BURR E. LEE, JR.
and RUTH C. LEE, as settlors, herewith transfer to
ourselves as trustee the sum of Ten ($10.00) Dollars
and declare said sum to be held by ourselves as
trustee in trust for and upon the uses set out in this
Declaration of Trust. We state that in addition, it is
our intention to take title to other property, both real
and personal, as trustee in the name of this trust.
All such property and additions thereto are herein
referred to as the "trust estate" and shall be held
upon the following trusts.
SECTION ONE: TRUST BENEFICIARIES:
1. During our lifetimes the income from the
trust shall be paid to us in convenient installments
or otherwise as we may from time to time direct and
also such sums of principal as we may request.
In the event of a successor corporate trustee
said requests shall be made in writing. If at any time
or times a beneficiary shall be under a legal
disability or by reason of illness or mental or
physical disability be, in the opinion of the trustee,
unable properly to manage his affairs, the trustee
may use sums from the income and principal of the

- 55a-

trust estate as the trustee deems necessary or
advisable for the care, support and comfort of the
beneficiary, or for any other purpose the trustee
considers to be for the best interests of the
beneficiary, adding to principal any income not so
used.
2. a. Commencing with the death of either
BURR E. LEE, JR. or RUTH C. LEE, the trustee
shall pay all of the estate expenses, costs of
administration, estate taxes and inheritance taxes
for the deceased, and after payment of same shall
continue to hold or distribute the trust estate for the
survivor of BURR E. LEE, JR. and RUTH C. LEE.
The trustee shall continue to pay income and such
sums of principal to the survivor as requested.
b. Commencing with the death of both BURR
E. LEE, JR. and RUTH C. LEE, the trustee shall pay
all of the estate expenses, costs of administration,
estate taxes and inheritance taxes for the deceased,
and after payment of same shall continue to hold or
distribute the trust estate in the following manner:
i. If the trust estate includes a 2.5 acre parcel
in Timberwick, New Mexico, and said parcel is not
improved with a residence, said parcel shall be
distributed to GRETCHEN VAN AUKEN.
Said
parcel of real estate shall be evaluated as of the date
of death of the survivor of BURR E. LEE, JR. and
RUTH C. LEE. If it is equal to one-seventh (1/7) or
more of the trust estate, it shall be distributed
outright to GRETCHEN VAN AUKEN
'k'k'k'k'k'k'k

(Trust Agreement - Page Two) 'k'k'k'k'k'k'k'k'k
as her distribution under the trust. If it is less than
one seventh (1/7), she shall share in the distribution

-56a-

of the remainder of the trust estate so that she
receives one seventh (1/7) of the trust estate
If said parcel in Timberwick, New Mexico, is
improved with a single-family residence at the time
of distribution, it shall not be distributed to
GRETCHEN VAN AUKEN, but shall be distributed
with the total trust estate and GRETCHEN VAN
AUKEN shall share in said distribution to the extent
of one-seventh (1/7) of the total trust estate.
ii. The remainder of the trust estate, after
distribution in accordance with subparagraph 2.b.i
above, shall be distributed equally among RICHARD
A. VAN AUKEN, SUSAN L. VAN AUKEN, JUDITH
G. VAN AUKEN, BURR JEFFREY LEE, CAROL L.
BOYKE and ELIZABETH M. LEE. Said distribution
shall take into account the provisions of
subparagraph 2.b.i above in regard to distribution to
GRETCHEN VAN AUKEN.
iii. In the event any of the aforementioned
beneficiaries are deceased at the death of both BURR
E. LEE, JR. and RUTH C. LEE, but leave
descendants surviving them, then the trustee shall
hold or distribute the share of the deceased
beneficiary for the benefit of the descendants of the
deceased beneficiary, dividing the same into equal
shares, per stirpes. In the event any of the afore­
mentioned beneficiaries predecease BURR E. LEE,
JR. and RUTH C. LEE not leaving descendants
surviving them at their death, then their share shall
be held or distributed among the other surviving
beneficiaries or their descendants in equal shares,
per stirpes.

- 57a-

iv. If any descendants of a predeceased
beneficiary share under the terms of this trust then
we direct our trustee as follows:
a) The share of each descendant shall
immediately vest subject to postponement of
possession.
b) As to each share of the trust estate which is
distributable to a descendant who has not reached
the age of twenty-one (21) the trustee may (1)
establish therewith a custodianship for the
descendant under a Uniform Gifts to Minors Act or
(2) retain possession of the share as a separate trust
until the descendant reaches majority, meanwhile
paying to him or her so much or all of the income and
principal of the share as the trustee deems necessary
or advisable from time to time for his or her needs,
best interests, education and welfare, and adding to
the principal any income not so paid.
c) Distribution of a descendant’s share shall be
at age twenty-one (21)

SECTION TWO: SUCCESSOR TRUSTEES:
1. In the event of the death of BURR E. LEE,
JR. or RUTH C. LEE, the survivor shall act as the
successor trustee under this trust.
2. In the event of the death, resignation or
inability of both BURR E. LEE, JR. and RUTH C.
LEE to act as trustee, the second successor trustee
under this trust shall be CITIZENS BANK AND
TRUST
'k'k'k'k'k'k'k

(Trust Agreement - Page Three)
COMPANY of Park Ridge, Illinois.

-58a-

•k'k'k'k'k'k'k'k

A determination as to whether any trustee is unable
to act shall be made by a physician and any
successor trustee may rely upon written notice of
that determination.
SECTION THREE: ADMINISTRATIVE PROVISIONS
The following provisions shall apply to the
trust estate and to each trust under this Declaration:
1. Construction: The law of the state in which
the trust property shall from time to time have its
situs for administration shall govern the validity and
interpretation of the provisions of this trust
declaration. Initially this state shall be the State of
Illinois. The administrative provisions of this trust
shall be construed literally to incorporate any
provisions set forth in any deed in trust conveying
the real property subject to terms of this trust.
2. Indemnification of depositories and transfer
agents: Any institution in which trust funds are
invested or deposited or any stock transfer agent
may act upon the signature of the successor trustee,
or signature of the co-trustees, co-successor trustees,
as applicable; to effect deposits, transfers or other
actions with respect to the deposit or stock, bond, etc.
as our successor shall determine. The institutions
that may deal with said accounts or stocks, etc., shall
not be responsible to inquire as to the authority of
the trustee or follow the application of said funds,
and we herewith indemnify and hold them harmless
from so acting upon directions from any successor
trustee hereunder.
3. Facility of Payment: Income or discretionary
amount of principal payable to a beneficiary who is
incapacitated or under a legal disability may be paid

- 59a-

by the trustee to the beneficiary, to his or her legal
representative or custodian under a Uniform Gifts to
Minors Act or to a relative or friend for his or her
benefit, or may be expended by the trustee directly
for the needs and best interests of the beneficiary.
4. Spendthrifts: The interest of beneficiaries in
principal or income shall not be subject to the claims
of any creditor, any spouse for alimony or support, or
other, or to legal process, and may not be voluntarily
or involuntary alienated or encumbered. This
provision shall not limit the exercise of any power of
appointment.
5.
Common Funds: For convenience of
administration or investment, the trustee may hold
the several trusts as a common fund, dividing the
income proportionately among them, assign
undivided interests to the several trusts and make
joint investments of the funds belonging to them.
The trustee may consolidate any separate trust with
any other trust with similar provisions for the same
beneficiary or beneficiaries created by us or any
member of our family.
6. Accrued Income: Income received after the
last income payment date and undistributed at the
termination of any estate or interest shall, together
with any accrued income, be paid by the trustee as
income to the persons entitled to the next successive
interest in the proportions in which they take that
interest.
7. Compensation: The corporate trustee shall
render an account of his receipts and disbursements
at least annually to us if living, otherwise to each
adult income beneficiary. The trustee shall be

-60a-

'k'k'k'k'k'k'k'k

(Trust Agreement - Page Four) 'k'k'k'k'k'k'k'k
reimbursed for all reasonable expenses incurred in
the management and protection of the trust any
successor trustee shall receive fair compensation. A
trustee’s regular compensation shall be charged half
against income and half against principal, except
that the trustee shall have full discretion to charge a
larger portion or all against income.
8. Perpetuity Savings: No trust created hereby
, or by exercise of a power of appointment hereunder,
shall continue for more than 21 years after the death
of the last to die of ourselves and the beneficiaries in
being at our deaths. Any property still held in trust
at the expiration of that period shall immediately be
distributed to the persons then entitled to receive or
have the benefit of the income therefrom in the
proportions in which they are entitled thereto, or if
their interests are indefinite, then in equal shares.
9. Additions: We or any other person may
transfer, devise or bequeath additional property to
the trustee to be held under this declaration and may
designate the trust to which the addition shall be
made. If the addition is made by Will, the trustee
may accept the statement of the legal representative
that the assets delivered to the trustee constitute all
of the property to which the trustee is entitled,
without any duty to inquire into the representative’s
administration or accounting.
10. Powers: The trustee shall hold, manage,
care for and protect the trust property and shall have
the following powers and, except to the extent
inconsistent herewith, those now or hereafter
conferred by Illinois law:

-61a-

(a) To retain any property (including stock of
any corporate trustee hereunder or of a parent or
affiliate company) originally constituting the trust or
subsequently added thereto, although not of a type,
quality or diversification considered proper for trust
investments.
(b) To invest and reinvest the trust property in
bonds, stocks, mortgages, notes or other property of
any kind, real or personal, suitable for the
investment of trust funds;
(c) To cause any securities or other property,
real or personal, belonging to the trust to be held or
registered in the trustee’s name or in the name of a
nominee or in such other form as the trustee deems
best without disclosing the trust relationship;
(d) To vote in person or by general or limited
proxy, or refrain from voting, any corporate
securities for any purpose; to exercise or sell any
subscription or conversion rights; to consent to and
join in or oppose any voting trusts, reorganizations,
consolidations,
mergers,
foreclosures
and
liquidations and in connection therewith to deposit
securities and accept or hold other securities or
property received therefor;
(e) To lease trust property for any period of
time though commencing in the future or extending
beyond the term of the trust;
(f) To borrow money from any lender,
including a trustee hereunder individually, extend or
renew any existing indebtedness and mortgage or
pledge any property in the trust.
********

(Trust Agreement - Page Five) *********

-62a-

(g) To sell at public or private sale, contract to
sell, convey, exchange, transfer and otherwise deal
with the trust property and any reinvestments thereof
from time to time for such price and upon such terms
as the trustee sees fit;
(h) to employ agents, attorneys and proxies
and to delegate to them such powers as the trustee
considers desirable, and to designate a deputy for a
safe deposit box;
(i) To compromise, contest, prosecute or
abandon claims in favor of or against the trust;
(j) To divide or distribute the trust property in
undivided interests or in kind, or partly in cash and
partly in kind, and to sell any property in order to
make division or distribution;
(k) To deal with, purchase assets from, or
make loans to, the fiduciary of any trust made by us
or any member of our family or a trust or estate in
which any beneficiary under this declaration has an
interest, though the trustee hereunder is such
fiduciary, and to retain any property so purchased;
(l) To establish out of income and credit to
principal reasonable reserves for depreciation,
obsolescence and depletion;
(m) To transfer the situs of any trust property
to any other jurisdiction as often as the trustee
deems it advantageous for the trust, appointing a
substitute trustee to himself to act with respect
thereto; and in connection therewith, to delegate to
the substitute trustee any or all of the powers given
to the trustee, who may elect to act as advisor to the
substitute trustee and shall receive reasonable
compensation for so acting; and to remove any acting

-63a-

substitute trustee and appoint another, or reappoint
himself, at will;
(n) To perform other acts necessary and
appropriate for the proper administration of the
trust, execute and deliver necessary instruments and
give full receipts and discharges;
(o) To resign without order of court upon
notice being given to those beneficiaries entitled to
receive the income of the trust estate.
SECTION FOUR: REAL PROPERTY: As to any
real estate conveyed to this trust, the interest of any
beneficiary hereunder shall consist solely of the right
to receive earnings, avails and the proceeds from
rentals and from mortgages, sales or other
disposition of said property, to manage and control
said property as hereinafter provided, and to direct
the trustee in its dealings with the title to said
property as hereinafter provided. The said right in
the avails of said property shall be deemed to be
personal property and may be assigned and
transferred as such; that in case of the death of any
beneficiary hereunder during the existence of the
trust, his or her right and interest shall pass under
the terms of this trust; and that no beneficiary now
has , and that no beneficiary hereunder at any time
shall have any right, title or interest in or to any
portion of said real estate as such, either legal or
equitable, but only an interest in the earnings, avails
and proceeds aforesaid.
(Trust Agreement - Page Six) ********
The trustee shall deal with the real estate and
with any cash or other property or assets of any kind
icickJcic'kick

-64a-

on the written direction of the then existing
beneficiaries.
SECTION FIVE: TRUST AMENDMENTS: WE,
BURR E. LEE, JR. and RUTH C. LEE, reserve the
right at any time or times during both our lifetimes
to amend, alter or revoke this Declaration in all or
part. However, upon the death of BURR E. LEE, JR.
or RUTH C. LEE, this trust may not be revoked or
amended in regard to successor beneficiaries. The
right to revocation is personal to the beneficiaries
and may not be exercised involuntarily. All
amendments or revocations shall be in writing.
IN WITNESS WHEREOF, we have signed this
Declaration this 9th day of May, 1979."
signature - BEL Burr E. Lee, Jr.
signature - RCL Ruth C. Lee
STATE OF ILLINOIS:
COUNTY OF COOK: SS (sworn statement)
I, WILLIAM J. JOOST, notary public, hereby certify
that BURR E. LEE, JR. and RUTH C. LEE,
personally known to me to be the same persons
whose names are signed to the foregoing instrument,
appeared before me this day in person and
acknowledged that they signed the instrument as
their free and voluntary act, for the uses and
purposes therein set forth.
Given under my hand and notarial seal this 9th day
of May 1979
signature - WJJ
Notary Public
My commission expires 5-7-81

- 65a -

Pet. App. No. 12 (Seton Family Trust Agreement)
Trust Language Advice in Letter to Trustee
Issued by Fletcher Catron, Esq.: March 15, 2000
Entered into Public Court Record: January 30,2007
Catron, Catron & Sawtell, A Professional
Association
March 15, 2000
Mr. Burr Lee
14 Timberwick Road
Santa Fe, New Mexico 87505
Dear Mr. Lee:
I have received your letter of March 13. It seems to
me that the differences of opinions you have received
relate to the interpretation of the language you
underline in Section 5 of the trust. I read it literally; the
other attorneys seem not to do so.
As I read the language, you may not revoke or
amend the trust "in regard to successor beneficiaries."
That means that you may amend and modify the trust
however you want except that the successor
beneficiaries must not be altered. You will notice that
my draft of this trust, although completely restated,
kept the original beneficiaries. I did this because of this
section in the original trust.
As we discussed when we first met, my intention
was to alter the ownership of your assets to keep in the
trust those items which you wanted to go to Ruth's
children, and to remove from the trust those items
(only your house) that you did not want to have go
upon your death to her children. In this way, you did
not alter the trust with respect to successor
beneficiaries, although the successor beneficiaries of
the trust would not necessarily obtain 100% of your
assets.
- 66a -

I have no doubt that all of your assets, including
the trust assets, can be used now by you, in any way
you wish during your lifetime. If all those assets are
left to Ruth's children, as the trust dictates, there
will be absolutely no problem, no matter what you
have done in the past. If, though, some of your assets
do not go to Ruth's children, then I believe that you
open your estate up to the possibility of some sort of
litigation. This is after your death, of course.
I believe I discussed with you fully the possibility that
you would transfer the house out of the trust and into
joint tenancy between you and your Mend. This would
give your Mend the house upon your death, and it would
avoid its being held in trust (and thus subject to
beneficiary requirements) at the time of your death. If
the transfer of the house into joint tenancy were simply a
gift to your Mend, I would have additional concerns, but
our discussion was that it would be held in joint tenancy
in consideration of your Mend's obligation to care for you
during your lifetime. I think that your wife's children can
hardly complain if you make a transfer of the real estate
in exchange for fair value.
At the same time, I felt that the different provisions of
"The Burr Trust" may cause some problems. That is why
I suggested that you transfer your condominium units
from the Burr Trust back to the Burr and Ruth Trust. If,
upon your death, you are left with a single trust, with the
original beneficiary provisions, and nothing else, then
you should not have a problem. If, though, some of your
property has been transferred out of the trust, clearly for
the purpose of trying to avoid the provisions of the trust
with respect to beneficiaries, you may have problems. Of
course, you have to remember that all these problems
would come about only after your death; you will not be
faced with them personally. Nevertheless, I think you
-67a-

consider these matters in arranging your affairs at the
present time.
If you think we need to discuss this any further,
please give me a call.
Sincerely,
[SIGNED]
Fletcher R. Catron
FRC:mme

- 68a-

Pet. App. No. 13 (Seton Family Trust Agreement)
Warranty Deed Transferring Seton Family Property
Held by Trustee to Ruth Lee's 1992 Hospice
Nurse, Marie Harrison
Prepared and filed by Fletcher Catron, Esq.
Signed by Burr E. Lee, Jr. on June 12 2000
WARRANTY DEED
#1775675
BURR E. LEE, JR., an unmarried man, and BURR
E. LEE, JR., Trustee of the Burr E. Lee, Jr. and Ruth
C. Lee Self-Declaration of Trust No. 100331J, grant
to BURR E. LEE, Jr. and MARIE HARRISONB, as
joint tenants with right of survivorship, whose
address is 14 Timberwick Road, Santa Fe, New
Mexico 87505, the following described real estate in
Santa Fe County, New Mexico:
Commencing at an iron stake which is the beginning
point and which is on the east side of "South Fork"
entrance and exit road for Timberwick Village and
which is identical with the Southwest corner of the
Amended South Portion Tract 4 "Plat of Timberwick
Village" as amended by Walter G. Turley, April 16
1947 and October 19, 1949; Thence from said
beginning point and along the South Fork Road
toward the Las Vegas Highway N. 27° 14' E. 95.8 ft.
to an iron stake, the Northwest corner of this tract,
and labeled "Theodore P. Newitts 1.0 acre South
Portion Tract 4" on the plat referred to hereafter;
thence S. 64° 24' E. 449.2 ft. to an Iron stake
marking the Southeast corner of property owned by
H.H. Pattison; thence S. 24° 22' W. 53.1 ft. to an iron
stake; thence S. 5° 38' W. 40.16 ft. to a point from
whence the Center of the Leisher Ell bears N. 45° E.
2.4 ft.; thence S. 5° 38' W. 106.58 ft. to an iron stake;
thence S. 27° 56' W. 228.45 ft. (identical with
-69a-

Samuel P. Davalos survey April 8, 1963); thence
along a new line S. 27° 6' W. 150.68 ft. to an iron
stake set in the Southern line of the Davalos survey
and lying N. 65° 31' W. 28.33 ft. from the South end
of said hne as surveyed by Jack Horne; thence N. 64°
24' W. 586.45 ft. along the original Southern hne of
the Davalos survey, to an iron stake, the Southwest
corner of this tract, a point on the East side of the
South Fork Road; thence along the East side of the
South Fork Road N. 39° 23' E.326 ft. to an iron
stake; thence continuing along the East side of said
South Fork Road N. 27° 14' E. 164.9 ft. to the point
and place of beginning; all as shown upon "Plat
Showing Survey of Properties for Theodore P.
Newitts, Constance Mary Newitts, Portion of E.T.
Seton Lands, Timberwick Village, within the
Sebastian De Vargas, Section 20, T 16 N. R. 10 E.,
Santa Fe County, New Mexico", by Samuel P.
Davalos from the survey of May 1946, 8 April 1963,
and 18 June 1965, containing 7 acres more or less,
after partition by Jack Horne 27 Oct. 1977.
with warranty covenants.
This deed amends and replaces the deed previously
recorded to Book 1750 at page 959 of the records of
Santa Fe County, New Mexico, dated day of April 20,
2000.
Executed this 12th day of June 2000.
[SIGNED] BURR E. LEE, JR.
STATE OF NEW MEXICO )
COUNTY OF SANTA FE ) ss:

- 70a -

The foregoing instrument was acknowledged
before me this 12th day of June 2000 by Burr E. Lee,
Jr., individually and as trustee.
[SIGNED]
[FLETCHER R. CATRON],
Notary Public
[SEAL]
FLETCHER R. CATRON NOTARY PUBLIC
My commission expires: June 2002
[SEAL]-

COUNTY CLERK REBECCA BUSTAMANTE
SANTA FE COUNTY
Recorded: 12 day of June 2000 at 3:01 PM
[SIGNED]

- 71a-

Pet. App. No. 14 (Seton Family Trust Agreement)
Letter Describing Probate Representation
Issued by Fletcher Catron, Esq.: September 25, 2002
Catron, Catron & Sawtell, A Professional Association
September 25, 2000
Karen Aubrey, Esq.
Post Office Box 8435
Santa Fe, New Mexico 87504-8435
Dear Karen:
You are correct that I represent Marie Harrison in
her fiduciary capacity and not in her individual
capacity. I have forwarded you letter to her, and I
have suggested to her that she retain personal
counsel. As attorney for the estate, I note your
Demand for Notice and will comply with it, of course.
With respcect to the Claim Against the Estate, you
should know that your clients and the other children
are getting all the estate assets through the trust,
with the exception of some tangible personal proper­
ty of insignificant value. There is therefore nothing
left in the estate for your clients to claim against.
I think I should also mention that, while Burr Lee
certainly felt close to Ms. Harrison and felt grateful
to her for her companionship and assistance, I am
not at all sure their relationship was as you have
described it; Burr Lee, certainly, never described
Marie as his "paramour," his partner, or anything
other than his friend.
Sincerely,
[SIGNED]
Fletcher R. Catron
FRC:ps
cc: Marie Harrison
RECEIVED [Karen Aubrey]
- 72a-

Pet. App. No. 15 (Seton Family Trust Agreement)
District Court Order on Extrinsic Evidence in related case
Issued by Judge Carol Vigil on April 11, 2004
FIRST JUDICIAL DISTRICT COURT
STATE OF NEW MEXICO
COUNTY OF SANTA FE
Case No. D-0101-CV-2003-01861
JUDITH ALEXANDER, GRETCHEN VAN
AUKEN,
SUSAN VAN AUKEN, RICK VAN AUKEN and
BETSY LEE JOPPE
Plaintiffs
v.
MARIE ANTOINETTE HARRISON,
Defendant
Stipulated Order Regarding Extrinsic Evidence
THIS MATTER having come before the Court on
the stipulation of the parties, the Court having been
advised that one of the issues in dispute is the scope
of the former trustee's authority to make
distributions under the terms of the Burr and Ruth
Trust and the Burr Trust,
IT IS THEREFORE ORDERED that until such
time as the Court conducts a Mark V analysis and
determines whether the Trust documents are
ambiguous, no parol or extrinsic evidence shall be
submitted to the Court as part of any pleadings,
motions or otherwise, for purposes of interpreting the
meaning of any of the Trust documents.
Dated April 9, 2004
ORIGINAL SIGNED BY JUDGE CAROL J. VIGIL
Carol J. Vigil, First Judicial District Court Division III
-73a-

Pet. App. No. 16 (Seton Family Trust Agreement)
Affidavit of Fletcher Catron on Attorney-Client
Relationship with Trustee
Filed by: Peter F. Wirth for Defendant Marie Harrison
Excerpts: from pleading entered on July 10, 2004
First Judicial District Court
Alexander et al. v. Harrison (2004)
Defendant's Response to Plaintiff's Rule 1-056Motion
for Summary Judgment That Transfers Were Unlawful
AFFIDAVIT OF FLETCHER R. CATRON
A. Trust and Estate Credentials: p. 1, ^[1
1. My name is Fletcher R. Catron. I am an attorney
licensed to practice law in the State of New Mexico.
My practice over the last thirty years has focused
primarily on estate planning, probate and real estate
law. 1997-98 I served as the chair of the State Bar
section on probate and real property.
B. Attorney-Client Relationship with Trustee: p. 1,
2. On or around August 29, 1999, Burr E. Lee, Jr. first
came to my office to have me review his estate plan. As
part of this review, he brought copies of his will dated May
9, 1979, the Burr E. Lee, Jr. and Ruth C. Lee SelfDeclaration of Trust No. 10331J ("the Burr and Ruth
Trust"), and the Burr E. Lee, Jr. Living Trust.
C. Legal Opinion on Trust Instrument: p. 2, f 5
5. Regarding the issue of whether the Burr and Ruth
Trust was irrevocable after Ruth Lee's death, I
advised Mr. Lee that the only irrevocable provision
addressed the beneficiaries.
D. Transfer of Trust Property: p. 2, ^[9
9. Subsequently, I prepared a deed transferring 14
Timberwick to Burr E. Lee, Jr. and Marie Harrison as joint
tenants and prepared a new will for Mr. Lee to remove the
article leaving 14 Timberwick to Marie Harrison at death.
- 74a -

Pet. App. No. 17 (Seton Family Trust Agreement)
District Court Order on Trust Ambiguity
Issued by Judge James A. Hall on February 8, 2007
FIRST JUDICIAL DISTRICT COURT
STATE OF NEW MEXICO
COUNTY OF SANTA FE
Case No. D-0101-CV-200601509
RICHARD A. VAN AUKEN
Plaintiff
vs.
FLETCHER R. CATRON, et al.
Defendants
ORDER DENYING PLAINTIFF’S MOTION FOR
PARTIAL SUMMARY JUDGMENT
This matter having come before the Court upon
Plaintiffs Rule 1-056 Motion for Summary Judgment
That Trust Terms Were Violated by Property
Removal, and the Court having considered written
and oral argument of counsel and pro se party, and
the Court being otherwise informed in the premises;
The Court FINDS that the Burr E. Lee, Jr. and
Ruth C. Lee Self-Declaration of Trust No. 10331J,
executed in 1979, is ambiguous and open to more
than one plausible interpretation. The foregoing
Finding constitutes a genuine issue as to a material
fact necessary to Plaintiffs Motion.
Therefore, it is hereby ORDERED that Plaintiffs
Rule 1-056 Motion for Summary Judgment That Trust
Terms Were Violated by Property Removal be and
hereby is denied.
[SIGNED] James A. Hall, District Judge
Submitted by: CATRON, CATRON & POTTOW, P.A.
Attorneys for Defendant Catron
P.O. Box 788, Santa Fe, New Mexico 87504-0788
-75a-

Pet. App. No. 18 (Seton Family Trust Agreement)
Expert Affidavit on Trust Language
By James F. Beckley, Esq,, N.M. Trust Authority
Filed on April 2, 2007 by Wiliam Gilstrap, Esq.
AFFIDAVIT
STATE OF NEW MEXICO

)

)ss.
COUNTY OF BERNALILLO
)
JAMES F. BECKLEY, Esq., being duly sworn,
deposes and says that:
1. I am an attorney licensed by the Supreme Court of
the State of New Mexico;
2. I have been actively engaged in the private
practice of law in the State of New Mexico since
September 1969;
3. My practice focuses on estate planning, trusts,
wills, estates, probate, and trust administration;
4. I have been a Fellow of the American College of
Trust and Estate Counsel since 1993;
5. I have been a Legal Specialist in Estate Planning,
Trusts, and Probate Law certified by the New Mexico
Board of Legal Specialization since July 1, 1999;
6. I continue to maintain an "AV" rating by
Martindale Hubbell;
7.1 am listed in the Best Lawyers in Amewrica, 2007
edition, under the heading "Trusts and Estates)"
8. I have taught numerous legal education courses
for lawyers, accountants, and trust officers since
1990 in the legal subjects of wills, trusts, estate
planning, probate, and trust administration;
9. During my law career I have drafted and/or anal­
yzed numerous trusts for clients including revocable
-76a-

trusts similar to the BURR E. LEE, JR. AND RUTH
C. LEE SELF-DECLARATION OF TRUST NO.
10331J under trust agreement dated May 9, 1979;
10. The controlling consideration in determining the
meaning of a donative document is the donor's
intention and the donor's intention is given effect to
the maximum extent allowed by law (Restatement of
the Law, Third, Property - Wills and Other Donative
Transfers, Section 10.1, Comment h.);
11. The text of a donative document must be read in its
entirety (Restatement of the Law, Third, Property Wills and Other Donative Transfers, Section 10.2.,
Comment b.);
12. I have read and have become familiar with the
terms of the BURR C. fsicj LEE, JR. AND RUTH C.
LEE SELF-DECLARATION OF TRUST 10331J
under trust agreement dated May 9, 1979;
13. The pertinent sections of the BURR E. LEE, JR.
AND RUTH C. LEE SELF-DECLARATION OF
TRUST 10331J under trust agreement dated May 9,
1979, are as follows:
(A) TRUST DECLARATION: We, BURR E. LEE,
JR. and RUTH C. LEE, as settlers, herewith
transfer to ourselves as the trustee the SUM
(emphais added) of Ten ($10.00) Dollars ...
(B) SECTION ONE: TRUST BENEFICIARIES
1. During our lifetimes, the income from the
trust shall be paid to us in convenient
installments or otherwise as we may from time
to time direct and also such SUMS (emphasis
added) of principal...
2.a. Commencing with the death of either BURR
E. LEE, JR. or RUTH C. LEE
The trustee
- 77a -

shall continue to pay income and SUCH SUMS
(emphasis added) of principal to the survivor as
requested;
(C) SECTION FOUR: REAL PROPERTY: As to
any real estate conveyed to this trust, the interest
of ANY beneficiary hereunder shall consist
SOLELY of the RIGHT TO RECEIVE EARN­
INGS, AVAILS, and the PROCEEDS from ren­
tals and from mortgages, sales, other disposi­
tion....and to direct the trustee in its dealings with
the title to said property AS HEREINAFTER
PROVIDED and that no beneficiary hereunder at
any time shall have any right title or interest in to
[sic] any portion of said real estate as such, either
legal or equitable, but only an interest in the
earnings, avails, and proceeds aforesaid. The
trustee SHALL deal with the real estate and with
any cash or other property or assets of any kind on
the WRITTEN DIRECTION OF THE THEN
EXISTING BENEFICIARIES (emphasis added);
(D) SECTION FIVE: TRUST AMENDMENTS:
However, upon the death of BURR E. LEE, JR. or
RUTH C. LEE, this trust may not be REVOKED
(emphasis added) or amended in regard to
successor beneficiaries;
14. The language of the BURR E. LEE, JR. AND
RUTH C. LEE SELF-DECLARATION OF TRUST
NO. 10331J under trust agreement dated May 9,
1979 (hereinafter referred to as the "Trust"), is
unambiguous;
15. During the joint lifetimes of BURR E. LEE, JR.
and RUTH C. LEE, they were the trustees and the
income beneficiaries of the Trust;

- 78a-

16. During the joint lifetimes of BURR E. LEE, JR.
and RUTH C. LEE, they retained the power to
revoke and amend the Trust;
17. RUTH C. LEE died in August of 1992;
18. SECTION FIVE specifically states that, upon the
death of either BURR E. LEE, JR. or RUTH C. LEE,
the Trust may not be revoked;
19. Upon the death of RUTH C. LEE, BURR E. LEE,
JR. continued to serve as the sole trustee, BURR E.
LEE, JR. was the sole income beneficiary, and
RICHARD A. VAN AUKEN, SUSAN L. VAN AUKEN,
JUDITH G. VAN AUKEN, GRETCHEN VAN AUKEN,
BURR JEFFREY LEE, CAROL L. BOYLE, AND ELIZ­
ABETH M. LEE became vested remainder beneficiaries;
20. Pursuant to SECTION ONE, Paragraph 2.a. of
the Trust, BURR E. LEE, JR. was only entitled to
income and such sums of principal from the Trust as
he requested following the death of RUTH C. LEE;
21. SECTION FOUR of the Trust specifically limits a
beneficiary's right in regards to any real property
owned by the Trust to the earnings, avails, or
proceeds attributable to any such real property;
22. SECTION FOUR of the Trust specifically states
that "the interest of any beneficiary hereunder shall
consist solely of the right...to direct the trustee in its
dealings with the title to said property as hereinafter
provided;"
23. The last sentence of SECTION FOUR of the
Trust states "the trustee shall deal with the real
estate and with any cash or other property or assets
of any kind on the written direction of the then
existing beneficiaries;"

- 79a-

25. [sic] Upon the death of RUTH C. LEE, the Trust
became irrevocable;
26. The intention of the settlers of the Trust, i.e.
BURR E. LEE, JR. and RUTH C. LEE, is clear from
the document known as the BURR C. [sic] LEE, JR.
and RUTH C. LEE SELF-DECLARATION OF
TRUST NO. 10331J under trust agreement dated
May 9, 1979;
27. Such intent was to provide for the benefit of both
BURR E. LEE, JR. and RUTH C. LEE during their
joint lifetimes, to provide for the survivor upon the
death of either of them, and to distribute the assets
of the Trust, including real poroerty located in
Timberwick, New Mexico, to the vested remainder
beneficiaries;
28. The terms of the Trust mean what they say;
29. The phrase "such sums of principal," as set forth
in SECTION ONE, Paragraph 2.a. of the Trust, only
entitled BURR E. LEE, JR., during his lifetime
following the death of Ruth C. Lee, to distributions of
cash and not to distributions of assets in kind,
especially in light of the use of the word "sum" in the
preamble of the Trust which refers to the settlers
transferring the sum of "Ten ($10.00) Dollars to
themselves as trustee;
30. The terms of the Trust specifically preclude a
trustee from distributing any interest in any real
property owned by the Trust outright to any
beneficiary, e.g., BURR E. LEE, JR., as the trustee,
could not transfer the real estate located in
Timberwick, New Mexico, to himself as the sole
income beneficiary during his remaining lifetime
following the death of Ruth C. Lee without violating
the terms of the Trust;
- 80a-

31. The terms of the Trust specifically preclude a
trustee from dealing in any manner with any asset of
the Trust, including real property, without the
written direction of ALL of the beneficiaries, e.g.,
BURR E. LEE, JR., as the trustee could not
distribute the real estate located in Timberwick, New
Mexico, to himself as the sole income beneficiary
during his remaining lifetime following the death of
Ruth C. Lee without first obtaining the written
direction of BURR E. LEE, JR., RICHARD A. VAN
AUKEN, SUSAN L. VAN AUKEN, JUDITH G. VAN
AUKEN, GRETCHEN VAN AUKEN, BURR
JEFFREY LEE,
CAROL L.
BOYLE,
and
ELIZABETH M. LEE;
32. The transfer of the real property located in
Timberwick, New Mexico, from the Trust to BURR
E.
LEE,
JR.
and MARIE
ANTOINETTE
HARRISON, revoked the Trust as it related to the
vested interests of the remainder beneficiaries in
said real property;
33. Fletcher Catron, Esq. knew that the transfer
referenced above in Paragraph 32 was problematic
as evidenced by his letter to Burr E. Lee, Jr. dated
March 15, 2000, which is attached as Exhibit 1 to the
Affidavit of Fletcher R. Catron, Dated January 30,
2007 which is attached to Defendant Catron's
Memorandum Brief in Support of Motion For
Summary Judgment which is attached to Defendant
Catron's Motion For Summary Judgment. Such
letter in pertinent part states the following:
(A) "It seems to me that the differences of opinions
you have received relate to the interpretation of
the language you underline in Section Five of the
trust;"
-81a-

(B) If, though, some of your assets do not go to
Ruth's children, then I believe that you open your
estate up to the possibility of some sort of
litigation. This is after your death, of course;"
35. [sic] Fletcher R. Catron, Esq., by agreeing to
represent Burr E. Lee, Jr. as the sole successor
Trustee of the Trust, assumed responsibilities and
owed duties to the vested remainder beneficiaries.
See e.g., "We agree with the California courts that
when an attorney represents a trustee in his or her
capacity as trustee, that attorney assumes a duty of
care and fiduciary duties toward the beneficiaries as
a matter of law," Charleston v. Hardesty 839 P.2d
1303 (Nev. 1992);
36. Fletcher R, Catron, breached the duty of care and
the fiduciary duties owed to the vested remainder
beneficiaries of the Trust by assisting Burr E. Lee,
Jr. with the transfer of the real property located in
Timberwick, New Mexico, from the Trust to Burr E.
Lee, Jr. and Marie Antoinette Harrison, in violation
of the clear and unambiguous terms of the Trust;
37. Fletcher R. Catron, Esq., knowing that the
transfer of the real property located in Timberwick,
New Mexico, from the Trust to Burr E. Lee, Jr. and
Marie Antoinette Harrison was problematic, should
have sought the consent of all of the vested
remainder beneficiaries to such transfer, and absent
the unanimous consent of all such beneficiaries to
such transfer, he should have requrested that a court
of competent jurisdiction resolve the issue with
notice of such request being provided to all interested
parties.
38. In my opinion, a court would not have authorized
the transfer of the real property located in
- 82a-

Timberwick, New Mexico, from the Trust to Burr E.
Lee, Jr. and Marie Antoinette Harrison over the
objections of any of the vested remainder
beneficiaries without adequately protecting the
interests of such vested beneficiaries;
39. One of the purposes of the Uniform Probate Code
of New Mexico is to discover and make effective the
intent of a decedent in the distribution of his
property (Section 45-l-102(B)(2) N.M.S.A. 1978);
40. Fletcher R. Catron, Esq., by breaching his duties
owed to the vested remainder beneficiaries of the
Trust in assisting Burr E. Lee, Jr. in transferring
real property in clear violation of the terms of the
Trust, by failing to adequately advise the successor
trustee of the vested remainder beneficiaries of the
Trust of the violation of the terms of the Truist as a
result of the transfer of the real property located in
Timberwick, New Mexico, and by failing to correct
such violation during the probate administration of
the Estate of Burr E. Lee, Jr. deceased, engaged in
fraud that avoided or circumvented the purposes of
the Uniform Probate Code of New Mexicoso as to
implicate the application of Section 45-1-106
N.M.S.A. 1978;
41. Karen Aubrey, Esq. failed to preserve the claims
of the Trust in the probate proceeding by failing to
file a petition for allowance of claim after such claim
was denied by Fletcher R. Catron, Esq.;
42. On September 23, 2002, Karen Aubrey, Esq. on
behalf of Gretchen Van Auken, Susan Van Auken,
Judith Alexander, Betsy Lee Joppe, and Richard Van
Auken, filed a Demand for Notice and Claim Against
the Estate of Burr E. Lee, Jr. alleging that the
Estate was liable to the claimants in an
-83a-

undetermined amount as successor beneficiaries of
the Trust;
43. On October 9, 2002, Fletcher R. Catron, Esq. on
behalf of Marie Antoinette Harrison, the duly
appointed Personal Representative of the Estate of
Burr E. Lee, Jr., filed a Notice of Disallowance of
Claim that disallowed the claim filed by Karen
Aubrey, Esq.;
44. Section 45-3-806(A) N.M.S.A. 1978 states that
"Every claim that is disallowed in whole or in part by
the personal representative is barred so far as not
allowed unless the claimant files a petition for
allowance in the district court or commences a
proceeding against the personal representative not
later than sixty days after the mailing of the notice of
disallowance;"
45. Pursuant to Section 45-3-806(A), Karen Aubrey,
Esq. had until December 8, 2002, to file a petition for
allowance of the claim that she filed on September
23, 2002, and that was disallowed by Fletcher R.
Catron, Esq. on October 9, 2002; and
46. Karen Aubrey, Esq. failed to file a petition for
allowance of the claim that she filed, and she moved
to withdraw as counsel for Gretchen Van Auken,
Susan Van Auken, Judith Alexander, Betsy LeeJoppe, and Richard Van Auken as beneficiaries for
the Trust, which the Court granted by order filed on
March 5, 2003;
47. The failure of Karen Aubrey, Esq. to inform the
vested remainder beneficiaries of the Trust of her
failure to file a petition for allowance suggests that
she falsely represented a matter of fact by
concealment of that which should have been

- 84a -

disclosed so as to implicate the application of Section
45-1-106(A) N.M.S.A. 1978; and
48. The failure of Karen Aubrey, Esq. to "flag any
specific violations of the Trust and without
mentioning any responsibility for the Timberwick
transfer which might rest with Catron" (see
Paragraph 7 of Complaint for Damages and Other
Relief From Probate Fraud (§45-1-106(A), Attorney
Deceit, and Collusion (§36-2-17)) suggests that she
falsely represented a matter of fact by concealment of
that which should have been disclosed so as to
implicate the application of Section 45-1-106(A)
N.M.S.A. 1978;
Further Affiant Sayeth Not.
Dated: April 2, 2007
By: [SIGNED]
James F. Beckley, Esq.
Attorney at Law
STATE OF NEW MEXICO
) ss.
COUNTY OF BERNALILLO
)
On April 2, 2007, before me, the undersigned,
a Notary Public in and for the County of Bernalillo,
State of New Mexico, personally appeared James F.
Beckley, Esq., personally known to me (or proved to
me on the basis of satisfactory evidence) to be the
person whose name is subscribed to the within
instrument.
IN WITNESS WHEREOF, I have hereunto set
my hand and seal the day and year in the is [sic]
certificate first above written.
[S E A L] [S I G N E D] [KATRINA VOTH] Notary
Public
State of New Mexico My Commission Expires 01-3010

- 85a-

Pet. App. No. 19 (Seton Family Trust Agreement)
Supporting Affidavit on Trust Language
By William J. Joost, author and witness to 1979
Trust
Filed on October 31, 2008 by Richard A. Van Auken,
pro se
AFFIDAVIT
STATE OF WISCONSIN
)
) ss
COUNTY OF VILAS
)
WILLIAM JOOST, Attorney at Law, being duly
sworn, deposes and says that:
1. I am an attorney licensed by the Supreme Court of
the State of Wisconsin.
2. I have been actively engaged in the practice of law
in the State of Wisconsin since 1986 and, prior to
that, in the State of Illinois beginning in 1969.
3. My areas of practice in Illinois and Wisconsin were
and are probate, wills, estate planning, real estate,
business and commercial law, condo conversions and
bankruptcy.
4. In 1979 I prepared and witnessed the execution of
a trust instrument, the "Burr E. Lee, Jr. and Ruth C.
Lee Self-Declaration of Trust No. 10331 J."
5. I have recently reviewed a copy of this six-page
trust instrument as it was executed on May 9, 1979
by Ruth C. Lee and Burr E. Lee in my law office in
Park Ridge, Illinois.
6. I have also recently examined a seven-page
affidavit made on April 2, 2007 by James F. Beckley,
Esq. of Albuquerque, New Mexicvo, which affidavit
addresses the language in this 1979 trust
instrument.
-86a-

7. I find Mr. Beckley's affidavit to be accurate and
correct in the several paragraphs which analyze the
meaning of the language in the trust instrument. See
11 13-16, 11 18-26, and H 28,29 of Mr. Beckley's
affidavit.
8. Given that Ruth Lee died in 1992 as stated in 1 17
of the affidavit and that certain real property
("Timberwick") was held in trust as implied in 1 27 of
the affidavit, I also find as accurate and correct Mr.
Beckley's analysis of the effect of trust language
contained in H 30-32 of his affidavit.
9. I agree with Mr. Beckley that the language of the
trust instrument does not permit the surviving co­
settlor to invade the principal of the trust estate
through property transfer absent written approval
from the seven Van Auken/Lee children who were
named as beneficiaries and whose interests, after the
death of Ruth Lee, had become vested.
10. After Ruth Lee's death, Burr Lee did not have the
power to revoke or amend the trust instrument
without written approval of the seven beneficiary
children.
11. From my re-reading of the trust instrument and
from my personal recollection of the circumstances of
its execution nearly thirty years ago, there was no
expressed intent to allow the surviving co-settlor an
unlimited ability to invade the principal of the trust
estate, especially the real property placed in trust
which was to become the inheritance of the Lee and
Van Auken children.
12. My recollection of the circumstances is as follows:

- 87a-

A. I had prior dealings with Burr Lee since he
was a real estate salesman in Park Ridge,
Illinois.
B.The trust was drafted with the understanding
that this was a second marriage for Burr Lee
and Ruth Lee.
Further Affiant Sayeth Not.
Dated this 23rd October 2008
[SEAL] [SIGNED] William Joost, Attorney at
Law
Subscribed and sworn to before me This 23rd day of
October, 2008, Amy M. Franzen, Notary Public,
Vilas County, Wisconsin, My Commission expires:
07/25/10

- 88a-

PETITION APPENDICES: SECTION C
SATUTORY AND CONSTITUTION!, PROVISIONS
Pet. App. No.

Document/Authoritv

Page

18. U.S. Code: Judiciary and Judicial ....
90a
Procedure 28 U.S.C. §1654,
Appearance personally
Current as of: January 3, 2007
19. N.M. Statutes Annotated (1978), Attorneys ... 90a
NMSA §36-2-17, Attorney deceit or collusion
Current as of 2007
20. N.M. Misc. Civil Law, Declaratory Judgments .. 90a
NMSA §44-6-2, Scope; NMSA §44-6-4, Power
to Construe; NMSA §44-6-14, Construction
Enacted: 2003; Current as of 2007
21. New Mexico Probate Code .................................. 91a
NMSA §45-l-102(B),Underlying purposes
NMSA, §45-l-106(A), Effect of Fraud
Current as of 2007
22. N.M. Trust Code: NMSA §46A-3-303 ............ 92a
Representation by fiduciaries and parents,
Enacted: 2003; Current as of 2007
23. U.S. Constitution, Amendment XIV, Sec. 1 .... 93a
Equal protection and due process
Enacted: July 9, 1868
24. U.S. Constitution, Amendment V
93a
Due process
Enacted: December 15, 1791

-89a-

Pet. App. Nos. 18 through 24
(Statutory and Constitutional Provisions)
Pet. App. No. 18
U.S. Code, Judiciary and Judicial Procedure
28 U.S.C. §1654, Appearance personally or by counsel
Current as of: May 29, 2020 and January 3, 2007
§1654. Appearance personally or by counsel. In all
courts of the United States the parties may plead
and conduct their own cases personally or by
counsel as, by the rules of such courts, respectively,
are permitted to manage and conduct causes
therein.
Pet. App. No. 19
New Mexico Statutes Annotated (1978): Attorneys
Chapter 36, Article 2
Current as of: May 29, 2020 and January 3, 2007
§36-2-17. Attorney deceit or collusion: If an attorney
is guilty of deceit or collusion or consents thereto
with intent to deceive the court, judge or party, he
shall forfeit to the injured party, treble damages to
be recovered in a civil action, and may, if in the
opinion of the board of bar examiners such conduct
warrants it, be disbarred.
Pet. App. No. 20
New Mexico Declaratory Judgment Act:
Chapter 44, Article 6
Current as of: May 29, 2020 and January 3, 2007
§44-6-2. Scope: In cases of actual controversy,
district courts within their respective jurisdictions
shall have power to declare rights, status and other
legal relations whether or not further relief is or
could be claimed. No action or proceeding shall be
open to objection on the ground that a declaratory
- 90a-

Pet. App. Nos. 18 through 24 (continued)
(Statutory and Constitutional Provisions)
judgment or decree is prayed for. The declaration
may be either affirmative or negative in form and
effect and shall have the force and effect of a final
judgment or decree.
§44-6-4. Power to construe: Any person interested
under a deed, will, written contract or other writings
constituting a contract, or whose rights, status or
other legal relations are affected by a statute,
municipal ordinance, contract or franchise, may have
determined any question of construction or validity
arising under the instrument, statute, ordinance,
contract or franchise and obtain a declaration of
rights, status or other legal relations thereunder.
§44-6-14. Construction: The Declaratory Judgment
Act [44-6-1 to 44-6-15 NMSA 1978] is declared to be
remedial. The act's purpose is to settle and to afford
relief from uncertainty and insecurity with respect
to rights, status and other legal relations, and is to
be liberally construed and administered.
Pet. App. No. 21
New Mexico Probate Code:
§45-1-101 NMSA 1978 et seq.
Current as of: May 29, 2020 and January 3, 2007
§45-1-102(B) Purposes of Act: The underlying
purposes and policies of the [Uniform] Probate
Code are:
(2) to discover and make effective the intent of a
decedent in distribution of his property;
(4) to facilitate use and enforcement of certain
trusts.

-91a-

Pet. App. Nos. 18 through 24 (continued)
(Statutory and Constitutional Provisions)
§45-l-106(A) Effect of Fraud or Evasion: If fraud has
been perpetrated in connection with any proceeding
or in any statement filed under the [Uniform]
Probate Code [45-1-101 NMSA 1978] or if fraud is
used to avoid or circumvent the provisions or
purposes of the code, any person injured thereby
may obtain appropriate relief against the
perpetrator of the fraud including restitution from
any person (other than a bona fide purchaser)
benefiting from the fraud, whether innocent or not.
Any proceeding must be commenced within two
years after the discovery of the fraud. No proceeding
may be brought against one not a perpetrator of the
fraud later than five years after the time of
commission of the fraud.
Pet. App. No. 22
New Mexico Trust Code:
NMSA §46A-3-303, et seq.
Representation by fiduciaries and parents,
subsection (D) representation by trustee
Current as of: May 29, 2020 and January 3, 2007
§46A-3-303. Representation by fiduciaries and
parents.
To the extent there is no conflict of interest
between the representative and the person
represented or among those being represented with
respect to a particular question or dispute:
D. a trustee may represent and bind the
beneficiaries of the trust;
E. a personal representative of a decedent's estate
may represent and bind persons interested in the
estate; and
-92a-

Pet. App. Nos. 18 through 24 (continued)
(Statutory and Constitutional Provisions)
Pet. App. No. 23
U.S. Constitution, Amendment XIV, Section 1:
Equal protection and due process
Enacted: July 9, 1868
All persons born or naturalized in the United
States and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any State deprive any person of life liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.
Pet. App. No. 24
U.S. Constitution, Amendment V: Due process
Enacted: December 15, 1791
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment
or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia,
when in actual service in time of War or public
danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life,
liberty, or property, without due process.

-93a-

PETITION APPENDICES: SECTION D
MISCELLANEOUS ITEMS
Pet. App. No.

Document/Authoritv

Page

25. N.M. Court of Appeals Memorandum Opinion.. 95a
(by Judge A. Joseph Alarid)
Entered: June 27, 2008
26. Lee v. Catron: NMCA-2009-018 Case Law.... 101a
(by Judge Jonathan B. Sutin)
Opinion Date: September 16, 2008
Publication Date: March 23, 2009
27. District Court Hearing Transcript ............... 105a
(Case Dismissal by Judge Sarah Singleton)
Hearing Date: March 17, 2011
28. District Court Order Granting Injunctive Relief ..127a
(Issued by Judge Barbara J. Vigil)
Date Entered: November 1, 2011

-94a-

Pet. App. No. 25 (Miscellaneous Items)
N.M. Court of Appeals Memorandum Opinion
(by Judge A. Joseph Alarid)
Entered: June 27, 2008
IN THE COURT OF APPEALS OF THE
STATE OF NEW MEXICO
RICHARD A. VAN AUKEN
Plaintiff-Appellant,
v.
NO. 27,554
Consolidated with
27,555; 27,556;
27,557; 27,558
FLETCHER R. CATRON,
KAREN AUBREY,
PETER F. WIRTH, and the
ESTATE OF WILLIAM A.
SAWTELLE, [sic] JR.,
Defendants-Appellees.
APPEAL FROM THE DISTRICT COURT OF
SANTA FE COUNTY
Janies A. Hall, District Judge
Richard A. Van Auken
Santa Fe, NM, Pro Se Appellant
Sawtell, Wirth & Biedscheid, P.C.
W. Anthony Sawtell, Santa Fe, NM
Rodey, Dickason, Sloan, Akin & Robb, P.A.
John M. Brant, Albuquerque, NM
Catron, Catron & Sawtell, P.A.
Michael T. Pottow, Santa Fe, NM
Gerald G. Dixon, Albuquerque, NM
For Appellees

- 95a -

MEMORANDUM OPINION
ALARID, Judge
In No. 27554, Plaintiff appeals from the order
denying Plaintiffs motion for partial summary
judgment entered on February 8, 2007. [RP 443] In
No. 27555, Plaintiff appeals from the order
dismissing claims of trustee entered on February 8,
2007 [RP 4412], which took effect on March 5, 2007,
and then-again on October 4, 2007, pursuant to
orders of the district court entered as a result of this
Court's Order on Limited Remand entered on July
31, 2007. In No. 27556, Plaintiff appeals from the
district court's order dismissing claims against Peter
F. Wirth with prejudice entered on February 8, 2007.
[RP 438] In No. 27,577 Plaintiff appeals from the
district court order granting summary judgment
dismissing claims against the Estate of William A.
Sawtell, Jr. entered on February 8, 2007. [RP 436]
In No. 27558, Plaintiff appeals from the order
granting a motion to dismiss with prejudice
Plaintiffs claims against Defendant Karen Aubrey
entered on February 8, 2007. [RP 445]
This Court entered an Order consolidating the
appeals under Ct. App. No. 27,554. In addition, this
Court has filed two calendar notices proposing to
dismiss the appeals. The parties have responded
with memoranda in opposition. Unpersuaded, we
dismiss the appeals and remand to the district court
for further proceedings consistent with this opinion.
DISCUSSION
The record proper indicates that Plaintiff Richard
A. Van Auken, pro se, is the successor trustee and
the sole remaining beneficiary of the Burr E. Lee, Jr.
-96a-

And Ruth C. Lee Self-Declaration of Trust No.
10331J (the Trust). [RP 38] All of the consolidated
appeals arise out of Plaintiffs allegations that
Defendants-Attorneys are responsible for probate
fraud, attorney deceit, and collusion on the Trust and
Plaintiff himself as remaining sole beneficiary, for
allowing and facilitating Burr E. Lee, Jr. during his
lifetime as survivor of Ruth C. Lee, to transfer a
house, which had been a Trust asset, out the Trust to
an individual, Marie Harrison, in consideration for
her care of him for the rest of his lifetime. [Id.] The
district court dismissed Plaintiffs claims against
Defendants Peter Wirth, Karen Aubrey, and the
Estate of William Sawtell with prejudice. [RP 438,
436, 445] These orders of dismissal were apparently
made on the merits of Defendants' motions to
dismiss. [Id.] The orders were entered, however, at a
time when Plaintiff, a pro se individual, had all along
been improperly asserting the rights of himself and
the Trust, an artificial entity, pro se in the complaint
as amended and in all pleadings and responses to
Defendants' motions. It is, therefore, unclear what
final effect these orders of dismissal have with
regard to all of the claims asserted against the
Defendants in the complaint as amended by the
Plaintiff as the Trust and as an individual.
After the orders of dismissal, Plaintiff briefly
obtained counsel for the Trust and himself "as their
interests may result." [RP 604, 698] Pursuant to the
District Court's October 4, 2007 Orders, however,
counsel was allowed to withdraw, and the Trust's
motion to intervene, therefore, was properly denied
on this basis. See Martinez v. Roscoe, 2001-NMCA083, It 5, 7, 14-15, 131 N.M. 137 P.3d 887

-97a-

(dismissing an artificial entity's claims on appeal as
being improperly filed pro se). Plaintiff on behalf of
the Trust, which is not a party, is seeking to recover
an asset for the Trust so that it can be distributed to
himself as beneficiary. [RP 698] As such, the claims
of Plaintiff individually cannot proceed without
Plaintiff as Trustee recovering the Trust asset
sought to be distributed to Plaintiff as individual
beneficiary.
In the first calendar notice, we proposed to dismiss
the appeals on the basis that the orders were not
final. [Ct. App. File, CN1] In the second calendar
notice, we proposed not to reach the issue of finality,
because we proposed to dismiss all of the appeals on
the basis that the Trust, whose interests are
paramount to and interwoven with Plaintiffs
interests as beneficiary of the Trust, is required to be
and is not represented by counsel. See Martinez v.
Roscoe, 2001-NMCA-083, HI 15, 131 N.M. 137, 33
P.3d 887 (dismissing an artificial entity's appeal as
improperly filed pro se through an individual,
because the individual and the entity were separate
legal entities and the legal entity may not file pro se
pleadings through its manager who is not a licensed
attorney in New Mexico, even when the issue of
finality is not resolved)(citing Sunwest Bank v.
Nelson, 1998-NMSC-12, 1 9, 125 N.M. 170, 958 P.2d
740 (accepting jurisdiction to review an order of
dismissal without prejudice for improper venue
because the order disposed of the case to the fullest
extent possible in the court in which it was filed)).
The parties' memoranda in opposition to the
second calendar notice do not persuade us that it is
appropriate for this Court, as the reviewing Court, to
-98a-

make, in the first instance, the determinations we
set out in the second calendar notice and in the
opinion below, for the district court to make on
remand. Moreover, we are not persuaded by the outof-state case law cited by Plaintiff in his
memorandum. As we discussed in the first and
second calendar notices, under New Mexico law the
Trust may ot appear before this Court through
Plaintiff, an individual, acting pro se. Finally, we
deny Plaintiffs request for permission to submit
amicus briefs/memoranda.
Accordingly, based on the analysis set forth in the
second calendar notice, we dismiss the appeals. The
result of the dismissal of the appeals is that the cases
return to the district court to determine, in light of
the October 4, 2007, orders allowing counsel for the
Trust to withdraw and denying the Trust's motion to
intervene, whether, under Rule 1-019(B) NMRA, the
case can continue in the district court with the
parties before the court, or whether, without the
Trust, the entire case should be dismissed. See, e.g.
Srader v. Verant, 1998-NMSC-025, f 19, 125 N.M.
521, 964 P.2d 82 (discussing that the district court
shall determine whether in equity and good
conscience the action should proceed among the
parties before it, or should be dismissed, the absent
person being thus regarded as indispensable).
The factors to be considered by the district court
include: first, to what extent a judgment rendered in
the absence of the Trust might be prejudicial to it or
to those already parties; second, the extent to which,
by protective provisions in the judgment, by shaping
of relief, or other measures, the prejudice can be
lessened or avoided; third, whether a judgment
- 99a -

rendered in the absence of the Trust will be
adequate; fourth, whether Plaintiff will have an
adequate remedy if the action is dismissed for non­
joinder. Id.
In making the indispensable party determination
in this case, the district court may also consider that
joinder of the Trust while arguably feasible, has not
been accomplished despite the order of the district
court [RP 441; see also Rule 1-041(B) NMRA]. In
addition, the district court may consider that the
district court has given Plaintiff notice of the
consequences of failing to obtain counsel for the
Trust [RP 441], has ruled that the Trust may not
intervene without counsel, and has given Plaintiff
ample time to obtain counsel for the trust. [Id.]
Finally, the district court may consider that
Defendants should not be required to remain in the
lawsuit indefinitely. See, e.g. Rule 1-041(B); and see
Roscoe, 2001-NMCA-083, 1 14 (dismissing the
entity's pro se appeal does not violate the entity's due
process rights).
For the reasons discussed above, we dismiss all of
the appeals and remand the cases to the district
court.
IT IS SO ORDERED
[SIGNED]
A. JOSEPH ALARID, JUDGE
WE CONCUR:
[SIGNED] MICHAEL D. BUSTAMANTE, Judge
[SIGNED] CYNTHIA A. FRY, Judge

- 100a -

Pet. App. No. 26 (Miscellaneous Items)
N.M. Court of Appeals Published Opinion in Lee v.
Catron, 2009-NMCA-018
(by Judge Johathan B. Sutin)
Opinion Date: September 16, 2008
Publication Date: March 23, 2009
Certiorari Denied, No. 31,410, December 30,2008
FROM THE COURT OF APPEALS
OF THE STATE OF NEW MEXICO
NO. 28,590
BURR E. LEE, JR. and RUTH C.
LEE SELF-DECLARATION OF
TRUST, by and through itself
and/or by and through RICHARD
A. VAN AUKEN, trustee,
Plaintiffs-Appellants,
v.

CATRON, CATRON & POTTOW, P.A.,
FLETCHER R. CATRON, and
KAREN AUBREY,
Defendants-Appellees.
APPEAL FROM THE DISTRICT COURT OF SANTA
FE COUNTY
James A. Hall, District Judge
Richard A. Van Auken, Santa Fe, NM
Pro Se Appellant
Law Office of Jack Brant, P.C.
Albuquerque, NM
for Appellees Catron, Catron & Pottow, P.A.,
and Fletcher R. Catron
Dixon, Scholl & Bailey, P.A., Albuquerque, NM
Gerald G. Dixon and Jennifer M. Rozzoni
for Appellee Karen Aubrey
- 101a -

OPINION
SUTIN, Chief Judge.
{1} Richard Van Auken, Trustee of the Burr E. Lee,
Jr. and Ruth C. Lee Self-Declaration of Trust (the
Trust), appeals pro se from an order of the district
court dismissing without prejudice the complaint filed
by the Trust. Defendants moved to dismiss this
appeal on the basis that Van Auken could not
represent the Trust on appeal. In our calendar notice,
we proposed to dismiss the appeal. Both parties have
responded. We have considered the arguments made
by the parties and dismiss the appeal.
{2} In our calendar notice, we pointed out that we
had previously required that the Trust be
represented by counsel. In so doing, we relied on
Martinez v. Roscoe, 2001-NMCA-083, IfH 7, 15, 131
N.M. 137, 33 P.3d 887, where we required a limited
liability company to be represented by counsel. The
basis of the holding in Martinez was that an artificial
entity could not be represented in court by a person
who is not a licensed attorney. Id.
5, 7.
{3} Van Auken argues that there is no basis on which
to conclude that a trust is a legal entity that must be
represented by counsel. He quotes treatise language
stating that a trust is not an entity. Loring: A
Trustee’s Handbook 13 (2006 ed.). He also quotes
out-of-state authorities supporting the notion that a
trust is not a legal entity, but rather a fiduciary
relationship that acts solely through the trustee. It
is true that a trust is not a legal entity and that the
trustee is the proper person to sue or be sued on
behalf of the trust. See NMSA 1978, § 46A-8-816(X)
(2003) (describing trustee’s power to prosecute or

- 102a -

defend action to protect trust property). However,
simply because a trust is not a legal entity that can
sue or be sued apart from its trustee does not mean
that the trustee can represent the trust pro se.
{4} Whether or not a trust is a legal entity does not
answer the question. The answer turns upon the
trustee himself. It is clear that the trustee is to
administer the trust “solely in the interests of the
beneficiaries.” NMSA 1978, §46A-8-802(A) (2003)
(amended 2007). Thus, a trustee is acting on behalf
of others who are beneficiaries of the Trust property.
Van Auken argues that the beneficiaries have no
title to, power over, or duty to the Trust property.
That is true. However, Van Auken, as trustee,
manages the Trust properties for the benefit of the
beneficiaries. When he acts for the Trust, he acts for
others than himself.
{5} Our case law is clear that “[t]he practice of law is
usually interpreted to entail the representation of
others.” United States u. Martinez, 101 N.M. 423,
423, 684 P.2d 509, 509 (1984). The representation of
parties before judicial or administrative bodies
constitutes the practice of law. State ex rel. Norvell
v. Credit Bureau of Albuquerque, Inc., 85 N.M. 521,
526, 514 P.2d 40, 45 (1973). One who is not a
licensed attorney cannot represent others in court.
See Chisholm v. Rueckhaus, 1997-NMCA-112, ^ 6,
124 N.M. 255, 948 P.2d 707. Because there are
beneficiaries of the Trust other than Van Auken
himself, his representation of the Trust results in
him representing the interests of others, which is the
unauthorized practice of law. See C.E. Pope Equity
Trust v. United States, 818 F.2d 696, 697-98 (9th Cir.
1987); Zeigler v. Nickel, 75 Cal. Rptr. 2d 312, 314-15
- 103a -

(Dist. Ct. App. 1998). Where one is acting as a
fiduciary for the benefit of others, he may not present
arguments to a court pro se.
See Steele v.
McDonald, 202 S.W.3d 926, 928 (Tex App. - Waco
2006).
It is only where a trustee is the sole
beneficiary that the trustee may represent a trust or
an estate pro se. See Tradewinds Hotel, Inc. v.
Cochran, 799 P.2d 60, 66 (Haw. Ct. App. 1990).
{6} Van Auken argues that in this case an attorney
would be unable to properly represent the Trust. He
apparently bases this argument on his past
experiences with attempts to retain counsel. He
argues that licensed attorneys as a class in New
Mexico refuse to represent him and the Trust against
other attorneys who he alleges permitted Trust
property to be improperly removed from the Trust.
He argues that that refusal acts as a defense against
his complaints, preventing him from exercising his
duty of loyalty to the Trust.
However, simply
because Van Auken has been unable to find counsel
to represent him does not allow him to engage in the
unauthorized practice of law.
{7} For the reasons stated herein and in the notice of
proposed disposition, the appeal is dismissed.
{8} IT IS SO ORDERED.
JONATHAN B. SUTIN, Chief Judge

WE CONCUR:
MICHAEL D. BUSTAMANTE, Judge
CELIA FOY CASTILLO, Judge
- 104a -

Pet. App. No. 27 (Miscellaneous Items)
District Court Hearing Transcript
(Dismissal Hearing by Judge Sarah Singleton)
Hearing Date: March 17, 2011
STATE OF NEW MEXICO COUNTY OF SANTA FE
FIRST JUDICIAL DISTRICT COURT
RICHARD A. VAN AUKEN,
Plaintiff,
vs. NO. D-0101-CV-200601509
FLETCHER R. CATRON, et al„ Defendant.
TRANSCRIPT OF PROCEEDINGS
On the 17th day of March 2011, at approximately
11:00 a.m., this matter came on for hearing on a
MOTION TO DISMISS before the HONORABLE
SARAH M. SINGLETON, Judge of the First Judicial
District, State of New Mexico, Division II.
The Plaintiff appeared by Counsel of Record,
DAVID A. STANDRIDGE, THE STANDRIDGE LAW
FIRM, Attorneys at Law, 1516 San Pedro Drive,
N.E., Albuquerque, New Mexico 87110.
The Defendants appeared by Counsel of Record,
JACK BRANT, LAW OFFICE OF JACK BRANT,
P.C., Attorneys at Law, 202 Tulane Drive, S.E.,
Albuquerque, New Mexico 87106; and GERALD G.
DIXON, DIXON, SCHOLL & BAILEY, Attorneys at
Law, P.O. Box 26746, Albuquerque, New Mexico
87125; and ANDREW SCHULTZ, RODEY, DICKASON,
SLOAN, AKIN & ROBB, Attorneys at Law, P.O. Box
1888, Albuquerque, New Mexico 87103.
At which time the following proceedings were had:
************

THE COURT: Let me call the matter of Richard A.
Van Auken vs. Fletcher R. Catron, D-0101-CV200601509. Counsel, enter your appearances for the
record.

- 105a -

MR. STANDBRIDGE: David Standbridge for
the Plaintiff, Richard Van Auken.
THE COURT: For the Defendants?
MR. BRANT: Jack Brant on behalf of Fletcher
Catron.
MR. DIXON: Jerry Dixon on behalf of Karen
Aubrey,
MR. SCHULTZ:
Andrew Schultz for
Defendant Peter Wirth.
THE COURT: We're here on Mr. Catron's
Motion to Dismiss, that was joined by Peter Wirth,
and made some additional points, and by Karen
Aubrey, who joined Catron's motion,
So who's
arguing it?
MR. BRANT: I am going to start, Your Honor.
May it Please the Court. Your Honor, this is a
Motion to Dismiss under Rule 19 for failure to join
an indispensable party, that being the Trust or
Trustee of the Burr E. Lee Trust, which is the subject
of the lawsuit. I won't spend too much time on the
indispensable party issue because I think it's set out
clearly in the briefs. And I would argue that it ought
even to be a controversial issue, that issue itself,
because the lawsuit seeks to determine the nature of
the Trust and whether
Mr. Catron, Ms. Aubrey, and others violated duties
to the Trustee. And if you don't have the Trust or
Trustee as a party, I think it's clear that, No. 1, the
interests of the Trust and the Trustee could be
affected. So that's one of the prongs under Rule 19 to
determine whether a case should go forward if a
necessary party isn't there.
The other prong is that the Defendants, my client,
Fletcher Catron, could certainly be subjected to
further lawsuits.
He can't get complete relief
- 106a -

because a determination as to whether he breached
duties or whether the Trust said what it said or what
the Plaintiffs claim it said wouldn't be binding on the
Trust and the Trustee. And, therefore, I think THE COURT: Let me ask you more about
that. Let's say this case didn't join the Trust and
went to judgment, and the judgment was in favor of
Mr. Catron. So then the day after that judgment is
entered, the Trust comes along and files suit, Trust
vs. Catron. Wouldn't the trust be in privity with the
Plaintiff in this case?
MR. BRANT: I don't think so. He's sued as a
beneficiary of the Trust, and I think the Court of
Appeals -- I mean, that's what cued us to file the
motion in the first place. I think the Court of Appeals
clearly said that they didn't think that the
beneficiary necessarily had standing to bind the
Trust or the Trustee. It might work the other way
around. I think it probably would work the other
way around. I don't know that a beneficiary is an
agent of a Trustee and, therefore, is in privity or
capable of binding the Trustee. So I don't think that
it would bar the Trust. In fact, Mr. Van Auken has
proved through his actions that he doesn't
necessarily think that's true. He has brought other
lawsuits on the basis of being a beneficiary. He tried
to bring another lawsuit as a Trustee, which also got
dismissed. So, I mean, we know from history that
it's not going to stop somebody from coming back and
filing another lawsuit. So I would argue this is a
pretty classic paradigm case for a Rule 19 situation
and otherwise -- I don't know whether the Court is
concerned about the effect on Mr. Van Auken and
whether this would be an unfair result if this lawsuit
were dismissed on that basis denying him his day in
- 107a -

Court or whatever. I can talk to the Court about the
whole history of this if you want to hear it, but I
don't want to burden you with it, if that's not an
issue for you.
THE COURT: The fourth element, it seems to
me, is whether Plaintiff will have an adequate
remedy if the action is dismissed for nonjoinder, so
maybe you best address that.
MR. BRANT: The history of this matter is
that it goes clear back to 2000. Mr. Van Auken had a
remedy with regard to what Mr. Burr Lee did with
the property, which was in a probate proceeding. He
hired Karen Aubrey. When he didn't like the advice
that she gave him, he fired her. Then they sued the
woman who received the property and settled with
her. So arguably, they have gotten a chance at a
remedy there. Then they began filing these lawsuits,
three of them now. This is the first one, the one
we're here on now, and it was dismissed because Mr.
Van Auken didn't have Counsel. He was given by
Judge Hall time to get Counsel, failed to get Counsel.
The case was dismissed. He filed the second lawsuit
by Counsel, and then because he wouldn't take the
advice of that Counsel, they withdrew. We know
that because Mr. Van Auken put the reasons for
their withdrawal into the record in the case even
though that would have been otherwise confidential
information. Then he filed another lawsuit and has
taken us all the way up to the U.S. Supreme Court
and back; Motions for Reconsideration again,
stubbornly refusing to abide by the Court's ruling
that he needs Counsel to proceed in the case.
And so, finally, in this case the Court affirmed
that decision again and told Mr. Van Auken that he
needed to have Counsel. It came back to this Court,
- 108a -

sat here for over a year, didn't get Counsel. We
moved to dismiss the case, and on the eve of the
hearing is when Mr. Standbridge finally appeared
and moved in.
Who is Mr. Standbridge
THE COURT:
appearing for? I guess I should ask him.
MR. STANDBRIDGE: The only Plaintiff, as
far as I am aware, is Mr. Van Auken, as beneficiary.
THE COURT: They didn't tell me he had to
get Counsel in his own right. The Trust has to have
Counsel.
MR. BRANT: Right. He came along and
attempted to have the Trust intervene in the lawsuit,
and that's the motion that Your Honor denied as
being untimely. I know Mr. Van Auken is Pro Se. I
would argue that he's had the full measure of due
process throughout this procedure. Judge Hall bent
over backward to accommodate him, the Courts of
Appeal have done so, the rulings have been clear and
well-founded. It's really not fair for our clients, for
Mr. Catron and Ms. Aubrey, to have been required to
continue to deal with these claims over and over and
over again, given the way that Mr. Van Auken has
conducted himself. He's been a perfect gentleman,
and he has been very professional to me, but he
doesn't seem to listen to the Court's instructions.
So I think it's well within this Court's
discretion to demonstrate that he's had his chance at
adequate remedies and hasn't taken advantage of
them. It's certainly time to end this. It's been going
on for ever and ever and ever. That's my argument,
Your Honor. I think Mr. Dixon would like to address
the Court as well, if you'll permit him.
THE COURT: Yes.

- 109a -

MR. DIXON: May it Please the Court. I think
at the outset I would simply say we are in a bit of a
quandary because the Court of Appeals was unclear
in sending the case back to the Court as to whether
Ms. Aubrey - and I think Mr. Schultz would argue
the same for his client - were still part of this scope
of questions that had to be answered by the Court.
So out of an abundance of caution, we have joined in
this motion. If this Court agrees with us that Ms.
Aubrey is out of this case, then I'll sit down.
Otherwise THE COURT: I don't remember making that
determination as to Ms. Aubrey. I sort of remember
making it as to Mr. Wirth. I don't remember Ms.
Aubrey asking me to decide that so far.
MR. DIXON: Okay. With respect to this
motion, it seems clear that not only is the Trustee an
indispensable party, perhaps the only party that can
assert the claims that Mr. Van Auken is attempting
to assert individually as a beneficiary. He wasn't a
client of any of the attorneys here; and arguably, his
claim is against the Trustee, if anything at all. So
for this action to proceed, we believe the Trustee has
to be a party. That issue has been determined,
although I don't believe Mr. Van Auken's individual
claim would go forward. To buttress what Mr. Brant
has said, Mr. Van Auken, in his role as Trustee, has
had at least three bites at the apple against these
Defendants. He's pursued other claims through the
probate, and separate action against the person who
did receive the assets from the trust. And those
issues have all been litigated and settled, and this
case has been well briefed and decided by numerous
Courts. We believe it's time for this case to end, and
the motion ought to be granted. Thank you.
- 110a -

THE COURT:
Mr. Schultz, do you have
anything to say?
MR. SCHULTZ: Your Honor, briefly, I think
you are aware Mr. Meiering has been handling this
case and now he's had the good fortune to retire.
THE COURT: I didn't know that.
MR. SCHULTZ: But before he walked out the
door, Your Honor, he indicated that he was still a bit
unsure. His recollection was that this Court had
determined that Mr. Wirth was out of this case, but
since that time, Your Honor, we continue to get
notices and continue to have motions that are
addressed to us. I'm here, Your Honor, truly out of
an abundance of caution. We would like to have
restated that Mr. Wirth is out of this case, and that
we have no need to further participate in any of the
proceedings in this case. Otherwise, we fully join Mr.
Brant in his motion.
THE COURT: Just like you act out of an
abundance of caution, so does my assistant. If
somebody appeared once, she'll probably be sending
notices not only after they retired, but probably after
I retired. No matter what I rule, I can't guarantee
you will not get notices. I get your point.
Mr. Standbridge, before you start, let me say
there was some observation about being kind to Pro
Se litigants, which is, in fact, something I try to do.
But we are having a hearing today in this matter out
of an attempt to be kind at a Pro Se litigant, because
if I had just gone on the papers that were filed, I
would have granted the motion because the paper
that was filed didn't address any of the issues raised
in the motion. So I am giving you an opportunity to
make the argument on behalf of the Plaintiff, even

- 111a-

though the Pro Se paper you filed was inadequate, in
my opinion.
MR. STANDBRIDGE: I understand, and I
appreciate that. If I may, I have a copy of the rule
and the cases that we are relying upon.
THE COURT: All right.
MR. STANDBRIDGE: To properly address
the Motion to Dismiss under Rule 19, I don't want to
belittle the issues, but it's important to address some
procedural history. On June 27, 2008, the Court of
Appeals issued their Memorandum Opinion
indicating that Mr. Van Auken's claims were
properly dismissed because he couldn't represent the
Trust Pro Se. Then this Motion to Dismiss under
Rule 41 and under Rule 19, I believe, were filed on
October 7, 2009. My client then filed a motion in an
attempt, as already referenced, to intervene as
Trustee on December 7, 2009, which this Court
denied as being untimely. On December 30, 2009,
this Court denied the Motion to Dismiss under Rule
41, but left open this issue under Rule 19. And from
what we understand, we are here to address this
Rule 19 request to dismiss.
THE COURT: Which is really based on the
Court of Appeals' Opinion.
MR. STANDBRIDGE: Correct, the mandate
from the Court of Appeals. I'm in agreement because
what's really been requested in the Motion to
Dismiss, which was filed after the Court of Appeals
obviously issued the Memorandum Opinion, was to
dismiss this case because in the words of the motion,
"The Trust is a necessary party under Rule 19." The
old saying goes, "The devil is in the details," and I
certainly think that's the situation in this case;
because under the Court of Appeal's Memorandum
- 112a -

Decision, which was entered prior to the reported
decision of Lee vs. Catron, which provide to the
Courts, at 145 New Mexico 573, "We agree that the
Defendant correctly cited in the Motion to Dismiss
the Court of Appeals' Memorandum Decision in the
case." However, the important development between
the Court of Appeals' Memorandum Decision in this
case and the filing of the Motion to Dismiss under
Rule 19 is that Lee vs. Catron case that we cite to.
The reason it's important is because in that Lee vs.
Catron case, it says the Trust is not a legal entity
and cannot be sued or sue. That's important when
we are doing an analysis under Rule 19, because
under Rule 19 the very first paragraph says,
"Persons to be joined if feasible. A person who is
subject to service of process shall be joined," and then
it goes on to describe the different rules.
My client's contention in this situation is that
with the advent of Lee vs. Catron falling after the
Court of Appeals' Memorandum Decision, and the
Court can look at the Memorandum Decision in this
case and throughout, there is no mention of Trustee.
It is a complete mention of the Trust being joined as
a necessary party in this litigation. The Motion to
Dismiss under Rule 19 filed by the Defendant in this
case also references joining the Trust as a necessary
party because that's what the Court of Appeals said.
However, under Rule 19, since our Court of Appeals
said a Trust cannot sue and be sued, it is our
contention under Rule 19, therefore, is not subject to
service of process, and the Court would have to deny
this request under the Rule 19 request.
THE COURT: I could just put in the word
"Trustee" and I think all the rules remain the same.
The Trustee still has to, based on the cases that I
- 113a -

have looked at, still has to be represented by Counsel
and can't appear Pro Se.
MR. STANDBRIDGE: Right. I will address
that if the Court says you are going to do that. My
client does have a position on that. Essentially,
under Rule 19, one of the reasons for Rule 19 is to
avoid the inefficiency that could result from
piecemeal litigation.
In fact, in the Motion to
Dismiss, the Defendant raises this, essentially, on
page five: "This case cannot proceed without
affecting the Trust's ability to protect its interest and
without possibly subjecting Mr. Catron to multiple or
conflicting exposures." So if the Court were to
essentially interject Trustee in there, as opposed to
Trust, which we believe is an important distinction,
we think that under Rule 19 there is a three-part
analysis. We gave the Court Armijo vs. Pueblo of
Laguna, a 2010 Court of Appeals Decision that
outlined a three-part analysis. The first question is
if the questioned party is necessary to the litigation.
The second question is if that party is necessary, the
Court must determine if joinder is possible. The
third question is, third and finally, if the party
cannot be joined, the Court decides whether in equity
and good conscience that party is indispensable to
that litigation.
THE COURT: You are looking at Armijo?
MR. STANDBRIDGE:
Correct. The first
point under that three-part analysis is whether or
not the Trustee — again, if the Court substitutes the
language of Trust for Trustee. The Trustee, we
contend, is not necessary. The determination that a
party is necessary, and this is according to the
Armijo case, involves a functional analysis of the
effects of the person's absence upon the existing
- 114a -

parties, the absent person, and the judicial process
itself. On its face, we would agree the Trustee
appears to be necessary, but a deeper analysis shows
a Trustee is not necessary in this situation. The
amended complaint that was filed on May 11, 2007,
alleges facts that arise from an incident in 2004.
That's in my client's Second Amended Complaint
Revised, if I'm not mistaken. Anyway, the reason I
address that is because I think it's clear, and it was
raised as an affirmative defense by the Defendant in
their answer, that the statute of limitations would be
prohibitive on the Trustee bringing another action.
The statute of limitations was an affirmative defense
raised in this case. And certainly we believe that the
effect of the Trustee in this situation has no bearing
because any future claim, a new lawsuit in this
situation, would be barred by the statute of
limitations claim. Therefore, I don't believe that the
Defendant would be suffering the possibility of
multiple effects of litigation or having inconsistent
results. And, therefore, it is our contention that
because a new lawsuit by the Trustee could not
happen, the Trustee, therefore, being barred from
bringing anything, that the Trustee in this situation
would not be necessary.
THE COURT: Wouldn't a Trustee have an
interest in how the trust documents are interpreted?
It's my understanding that that's what your client
really wants, is an interpretation of the trust
documents. Doesn't the Trustee, on behalf of the
Trust, have an interest in how the documents should
be interpreted?
MR. STANDBRIDGE: Absolutely. I would
agree with the Court. But, on its face, it appears it
would be necessary. However, let's play that out. If
- 115a-

my client is in a situation where the Court grants
this Motion to Dismiss, the Trustee can't file a new
lawsuit. They could, but the possibility of going
anywhere is unlikely similarly because the statute of
limitations will bar any future actions by the Trustee
in this situation.
THE COURT: Why couldn't the Trust bring a
declaratory action day after tomorrow asking a Court
to interpret the Trust documents?
MR. STANDBRIDGE: Well, the claims that
are raised in the complaint, I mean, the first
analysis, if we get beyond this, is we have asked the
Court to bifurcate the issue. We do agree the first
analysis is interpreting that Trust language,
assuming that language is interpreted, one way or
the other, that we get to the heart of the matter in
the complaint for damages for negligence and a slew
of other things that have been filed in the Second
Amended Complaint. So the mere fact of having the
Trust interpreted isn't going to get us to the point of
a recoverable damage that my client is seeking,
based upon the situation and conduct and actions of
the Defendant. So a recoverable action will not be
able to go forward if this matter is dismissed with a
Trustee.
THE COURT: But won't the interpretation
bind the Trust in terms of future actions?
MR. STANDBRIDGE: In terms of future
actions, but the complaint is alleged upon actions
from 2004. So there is nothing left in the Trust
essentially, so it's really things that have been
removed from the Trust that my client contends were
removed improperly.
THE COURT: Let's play this out. Let's say I
interpret the Trust in such a way that those
- 116a-

transactions get set aside. They're brought back into
the Trust, right?
MR. STANDBRIDGE: Actually, my client
didn't ask for that relief.
THE COURT: What else can happen? If it's
only the Trust that can do this, it seems that at least
temporarily it has to go back into the Trust.
MR. STANDBRIDGE: The property has been
sold, so I don't think that would be feasible; but what
my client asked for was an action for fraud, collusion
and THE COURT: Whatever. It would belong to
the Trust, not your client as an individual. That's
my point. My point was I wasn't thinking about
specific performance or revocation of a deed. The
Trust is going to have to distribute it based on some
terms which could be interpreted in the course of this
litigation, couldn't it?
MR. STANDBRIDGE: I would respectfully
disagree because my client's position is that what
they are after is a lawsuit against the attorney who
gave advice on removal of the place of the Trust. So
although the language in the Trust is important,
that's not the heart of what this lawsuit is about.
Again, I contend that even if the Court dismisses this
under Rule 19, the Trustee could bring an action to
interpret the Trust, but the nature of what this
lawsuit is, the Trustee will be barred under the
statute of limitations.
THE COURT:
An action against that
particular attorney might be barred, is what I think
you are saying, but they could, in my opinion, bring
an action to interpret the Trust. What happens if
that action comes up with a different interpretation
than the interpretation that I come up in this case?
- 117a -

MR. STANDBRIDGE: Well, I think if we play
that out, and assuming the Court came up with a
different interpretation, the question becomes what
lawsuits are available to the Trustee and/or the
beneficiary, and that could be obviously this
Defendant, which we contend would be barred by the
statute of limitations. It would also be against Ms.
Aubrey, which I would contend is barred by the
statute of limitations. So I think any future action,
regardless of what the Trust means outside of this
litigation, will leave the Trustee in a point of not
being able to pursue relief because of statute of
limitations. So even if the Court does indicate the
Trustee is necessary, we contend that under Rule 19,
joinder is possible. I would assert, on behalf of my
client, it's not discretionary under Rule 19,
particularly under subparagraph A to B. It says in
the middle of the paragraph, "If he has not been so
joined, the Court shall order that he be made a
party."
THE COURT: I think the argument is two­
fold. I don't believe they say it would be impossible
to join the Trust or Trustee, but your client has
frankly screwed around so long, he shouldn't be
allowed to at this time.
MR. STANDBRIDGE: I understand that. I
agree. I think in the motion I was going to raise the
sole obstacle raised by the Defendant, is lack of
Trustee being represented. That obstacle, we
contend, is no longer in existence because I stand
here ready to represent the Trustee. I know the
Court had denied that motion, but our position is
under Rule 19, joinder is possible and, in fact, not
discretionary —

- 118a -

THE COURT: You have to remind me what
motion you are talking about.
MR. STANDBRIDGE: Sure. I apologize. We
had filed, back in December 7, 2009, a motion to
allow the Trustee to intervene, and the Court denied
that motion as being untimely. The denial of that
motion was in an Order dated July 30, 2010.
THE COURT: I thought you said I denied
your motion to be attorney for the Trust, and I didn't
remember doing that.
MR. STANDBRIDGE: No, I didn't mean to
imply that. Under Golden Oil Company, 128 New
Mexico 526, the Court of Appeals stated, "We
observed that joinder is formally feasible, however, it
may become unfeasible if it is somehow precluded by
jurisdictional barriers." We contend there are no
jurisdictional barriers that would preclude the
joinder of the Trustee in this litigation. We think
that by the filing of this motion under Rule 19, we
think joinder can happen, and that, in fact, the Court
shall order that the Trustee be appointed. I think
the Defendant's Motion to Dismiss raises the fact
that the Court is now in a position where we do need
to join the Trustee. And the Court -- our suggestion
is not discretionary, but is obligated to join the
Trustee. We would contend also, Your Honor, that if
the Court goes on to make whether or not the party
is indispensable, we would contend the Trustee is not
indispensable to this litigation. I will not belittle the
points that we have raised, but there is absolutely no
other remedy that would be available because of the
statute of limitations, should this matter be
dismissed under Rule 19. I think the Defendant, the
sole reason they raise their concern under Rule 19, is
because they are afraid of multiple potential
- 119a -

outcomes. I don't think that argument has merit in
this situation, and that even a judgment in this
situation without the Trustee would be adequate,
given the current state of law of what it says about a
Trust and that not being a legal entity to sue or be
sued.
So, my client is asking the Court to deny the
Motion to Dismiss under Rule 19, particularly
because we do believe that Rule 19 indicates the
Trust cannot be made a party to this lawsuit,
particularly in light of Lee vs. Catron. And if the
Court does say that the Court of Appeals meant
Trustee and not using that language, then we would
contend that Rule 19 is not invoking this situation
because the Trustee is not necessary and that joinder
is possible in this situation. If we look at it from a
realistic perspective, should this lawsuit be
dismissed, this lawsuit effectively goes away because
of the timing of the situation, and my client, up until
we filed our Motion to Intervene as Trustee has been
pursuing. I don't agree with everything that's been
done, and I am not going to say I took this case based
on what he did, but we are trying to move this case
forward to get the final meaning of that Trust.
Thank you.
THE COURT: Mr. Brant, you need to address
Trust versus Trustee distinction, please.
MR. BRANT:
In that case that Mr.
Standbridge cited, Lee vs. Catron, 2009 NMCA 18,
the Court goes on, after saying technically the trust
is not a legal entity, it says, "Whether or not a Trust
is a legal entity does not answer the question. The
answer turns upon the Trustee himself. It is clear
that the Trustee is to administer the Trust solely in
the interest of the beneficiaries. Plus, a Trustee is
- 120a -

acting on behalf of others who are beneficiaries of the
Trust property. Thus, a Trustee is acting on behalf
of others who are beneficiaries of the Trust property.
Van Auken argues that the beneficiaries have no
title to power over or duty to the Trust property.
That is true. However, Van Auken, as Trustee,
manages the Trust properties for the benefit of the
beneficiaries when he acts for the Trust. He acts for
others than himself."
I think what the Court
basically said there is what you just said, which is,
technically speaking, maybe a trust is not an entity,
and the word should be Trustee; but I don't think
that's a reasonable distinction to deny this motion.
THE COURT: So you wouldn't object if I
interpreted your motion to say the Trustee was a
necessary party?
MR. BRANT: Not at all. In fact, I thought I
had used the term Trust/Trustee. I did use it in my
argument because I think they are essentially
identical. I don't think that would be inappropriate
at all. I would agree with that.
Two other points that he makes: One, I
frankly don't understand if the statute of limitations
has run as to the Trustee. How could the beneficiary
who is basically bringing this on behalf of the Trust
or on behalf of the Trustee still have a viable cause of
action? That lost me.
THE COURT: Because he filed before the
statute ran. And if the Trustee files a new suit, he's
not going to get the benefit of the relation back
doctrine. He's going to be filing as of, you know,
March 18, 2011, not whenever this case was filed.
That's my understanding.

- 121a -

MR. BRANT: I will admit, honestly, that I am
buffaloed by that whole argument. And I can't figure
it out, but I'm sure with time I would be able to.
The third point I would make is he says the
Trust could be joined. They moved to intervene; you
denied their motion. I wanted to remind the Court
that they moved to reconsider that decision, and you
denied their Motion for Reconsideration. So you
have twice before said, "I am not going to allow them
to come back in." So I think that you have ruled, and
you have considered it. It has been fully briefed, it's
been argued. Basically they're asking you for a third
time to reconsider your decision. I would request
that you not do that. I think you've already made
that decision. It was a well-founded decision, and it
was fully within your discretion, and that ought to be
the Court's ruling on that.
MR. STANDBRIDGE: May I reply?
THE COURT: Not really.
MR. STANDBRIDGE: Okay.
THE COURT: I'm looking at my Order of July
2010 where I denied the Motion to Intervene; Is that
right?
MR. STANDBRIDGE: Correct.
MR. BRANT: There was also an Order of
October 29, 2010, denying the Motion to Reconsider.
That's the July 30th Order.
THE COURT: Mr. Schultz, by the way, the
Order of October 29, 2010 is where I said the claims
against your client were dismissed with prejudice. I
might have been wrong, but that is what I said.
MR. SCHULTZ: Thank you, Your Honor.
THE COURT: And I didn't make the same
statement about Ms. Aubrey. So I have, all along,
thought she was still involved in the matter.
- 122a -

Well, on the issue of whether or not the
Trustee, and I am going to construe the motion as
being one which says the Trustee is a necessary
party, so on that issue I am going to rule that it is a
necessary party. To me, at least one important
aspect of the current case is how to interpret the
Trust documents. I believe that the Trust has an
inherent interest in how that is done, so I do believe
that it is not possible to protect the Trust's interests
if it's not a party, at least its interest in how the
Trust's documents are construed.
As to whether or not the statute of limitations
would bar any subsequent suit by the Trustee on the
claims of damages that are made in this case, while
it offhandedly strikes me they might be barred, there
are too many ways of getting around the statute of
limitations for me to feel secure in saying that would
be a basis for determining, as a matter of law, that
there is no chance of an inconsistent verdict or
judgment as it would relate to the Defendants who
are left in this case. So, for those reasons, I believe
that the criteria are met. I don't think that the lead
case is setting forth that many different — not lead,
it's the Armijo case — really setting forth that many
different things than what I have been asked by the
Court of Appeals to look at; but to the extent that it
did set forth something different, I find that the
criteria set forth in Armijo have been met.
And then looking at what the Court of Appeals
in this case said, in which I was mandated to follow,
in the absence of a Trust, might a judgment be
prejudicial to the Trust or to those who are already
parties, I think I have answered that one in the
To what extent could protective
affirmative.
measures in the judgment lessen the prejudice, I
- 123a -

don't believe, if the Trustee is not a party, that he
would, in fact, be bound by something done in this
action by the beneficiary. I think Mr. Brant is right
that, in essence, the Court has already said that the
beneficiary doesn't have standing to bind the Trust
or the Trustee.
The third criteria was whether a judgment
rendered in the absence of the Trust will be
adequate. If we have a judgment entered, and if the
Trust were later to come in and argue for a different
interpretation of the Trust document, since the
beneficiary's argument can't bind the Trustee and
the Trust, it would seem to me that the judgment in
this case would be inadequate because no one would
have any assurance that the interpretation would be
given lasting effect.
Fourth, whether Plaintiff will have an
adequate remedy if the action is dismissed for
nonjoinder. Well, here, I do believe the Plaintiff has
had numerous opportunities to get recompense for
the wrong that he seeks, so I think the fourth criteria
has been met. So I believe that the Trustee is a
necessary party.
Let's talk about whether or not the Trustee
should be joined. I don't believe there is any legal
impediment to joining the Trustee. It's not like the
Indian tribes that were involved in the Armijo case
or Laguna case. The only impediment to joining the
Trustee would be the prior orders that I think have
been issued by Judge Hall. All of them are based
essentially on the same principal, that it was
probably in 2006 when Plaintiff was first told he
needed to get a lawyer to represent the
Trust/Trustee, and he refused to do it. I know that
was something that concerned me when I issued the
- 124a -

motion on reconsideration because it just seems as
though it was pigheadedness not to do it. I mean,
you are given a direction by a Court, and it's easy to
comply with, and he doesn't do it. And here we are,
not quite five years but more than four years after
the date when that Order was first given. At some
point, I think you have to weigh the equities here.
Who do the equities favor in this case? Well, in my
opinion, they favor the Defendants because of the
way the Plaintiff has conducted himself. He has
refused to follow Court Orders in a timely fashion for
reasons that don't seem to bear rational scrutiny. So
for that reason, I am granting the Motion to Dismiss.
Who wants to draft the Order?
MR. BRANT: I will, Your Honor.
THE COURT: Mr. Brant, draft the Order.
Circulate it to all Counsel. How long do you need to
do that?
MR. BRANT: A week.
THE COURT: In a week, circulate it. If
everybody can sign off on it as to form, go ahead and
get it to me. If you can't sign off on it as to form, then
anyone who declines to sign it, what I want to have
happen is two weeks from today, I want Mr. Brant to
file his Notice of Filing of Proposed Order with his
proposed Order attached indicating who has
approved it. Anyone who has not approved it at the
same time, that's two weeks from today, will file
either objections to the proposed Order alerting me
to what they think is wrong with it, or they will file
their own Notice of Filing of Counterproposal as to
form. If you wouldn't mind filing those with the
Clerk's office and e-mailing them to me, then I would
appreciate it. I don't think there is anything further
that we need to do in this case.
- 125a -

MR. DIXON:
This is a dismissal with
prejudice?
THE COURT: Yes. We'll be in recess.
(Note: Court in recess at 12:00 p.m.)
STATE OF NEW MEXICO
)
) ss.
COUNTY OF SANTA FE
)
I, BRENDA CASIAS, Official Court Reporter
for the First Judicial District of New Mexico, hereby
certify that I reported, to the best of my ability, the
proceedings in D-0101-CV-200601509; that the pages
numbered TR-1 through TR-27, inclusive, are a true
and correct transcript of my stenographic notes, and
were reduced to typewritten transcript through
Computer-Aided Transcription; that on the date I
reported these proceedings, I was a New Mexico
Certified Court Reporter.
April 2011.
Dated at Santa Fe, New Mexico, this 25th day of
BRENDA CASIAS
New Mexico CCR
No. 119
Expires: December 31, 2011
Total cost of this transcript is: $91.41 [26 pgs @
$3.25 per page plus NMGRT @ 8.1875% ]

- 126a -

Pet. App. No. 28 (Miscellaneous Items)
District Court Order Granting Injunctive Relief
(Issued by Judge Barbara J. Vigil)
Date Entered: November 1, 2011
FILED IN MY OFFICE DISTRICT COURT CLERK
11/1/2011 11=42;48 AM STEPHEN T. PACHECO MRN
FIRST JUDICIAL DISTRICT COURT
COUNTY OF SANTA FE
STATE OF NEW MEXICO
CASE NO. CV-2011-01917
SETON FAMILY TRUST INTERESTS by
TRUSTEE, Richard A. Van Auken; and
JUDITH ALEXANDER, Beneficiary,
CAROL LEE DOEDEN, Beneficiary,
BETSY LEE JOPPE, Beneficiary,
JEFF NEUMAN-LEE, Beneficiary,
GRETCHEN VAN AUKEN, Beneficiary,
SUSAN VAN AUKEN, Beneficiary, and
RICHARD A. VAN AUKEN, Beneficiary;
Plaintiffs,
vs.
FLETCHER R. CATRON, ESQ.;
Defendant.
ORDER GRANTING INJUNCTIVE RELIEF
This matter having come before the Court upon
Defendant Fletcher Catron's Motion for Injunctive
Relief the Court having reviewed the motion, the
response, and the reply thereto; having considered
the arguments of counsel for the parties at the
hearing held in this matter on October 6, 2011; and
being fully advised in the premises,

- 127a -

IT IS HEREBY ORDERED that Mr.
Catron's Motion for Injunctive Relief is granted; and
plaintiff Richard Van Auken is hereby permanently
enjoined from (l) filing any civil or criminal action
against Fletcher R. Catron in any state or federal
court in the State of New Mexico, or (2) filing any
pleading or paper in any existing action in any such
court, unless he is represented by an attorney
licensed to practice law in the State of New Mexico
and a court in the state of New Mexico grants such
counsel permission to file such action, pleading or
paper, after notice and an opportunity to be heard on
counsel's application has been provided to Fletcher
R. Catron.
[SIGNED]
The Honorable Barbara J. Vigil
Submitted by:
/s/ Electronic Transmission
John M. Brant
Counsel for Fletcher R. Catron

Approved as to form:
via email 10/31/11
David A. Standridge
Counsel for Richard Van Auken

- 128a -

